Audit Report




OIG-06-013
Audit of the Office of D.C. Pensions’ Fiscal Years 2005 and
2004 Financial Statements


December 7, 2005




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              December 7, 2005


            MEMORANDUM FOR ROCHELLE F. GRANAT, DIRECTOR
                           OFFICE OF D.C. PENSIONS

            FROM:                  William H. Pugh,
                                   Deputy Assistant Inspector General
                                     for Financial Management and Information
                                     Technology Audits

            SUBJECT:               Audit of the Office of D.C. Pensions’ Fiscal Years 2005 and
                                   2004 Financial Statements


            I am pleased to transmit the attached audited Office of D.C. Pensions (ODCP)
            financial statements for fiscal years 2005 and 2004. We contracted with the
            independent certified public accounting firm KPMG LLP to audit the financial
            statements of ODCP as of September 30, 2005 and 2004 and for the years then
            ended. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards; applicable provisions of Office
            of Management and Budget Bulletin No. 01-02, Audit Requirements for Federal
            Financial Statements; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report on Financial Statements;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP found:

                •   the financial statements were fairly presented, in all material respects, in
                    conformity with accounting principles generally accepted in the United
                    States of America,
                •   no matters involving internal control and its operation that are considered
                    material weaknesses, and
                •   no instances of reportable noncompliance with laws and regulations tested.
In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or conclusions about the effectiveness of
internal control or compliance with laws and regulations. KPMG LLP is responsible
for the attached auditors’ reports dated November 2, 2005 and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5400, or a
member of your staff may contact Mike Fitzgerald, Director, Financial Audits at
(202) 927-5789.

Attachment
 U.S. DEPARTMENT OF TREASURY

     DEPARTMENTAL OFFICES

      OFFICE OF D.C. PENSIONS

           Financial Statements

       September 30, 2005 and 2004

(With Independent Auditors’ Report Thereon)
                                 U.S. DEPARTMENT OF TREASURY
                                       DEPARTMENTAL OFFICES
                                       OFFICE OF D.C. PENSIONS
                                           Financial Statements

                                           Table of Contents

                                                                                    Page

I.     Management’s Discussions and Analysis                                           1
II.    Independent Auditors’ Report on Financial Statements                           31
III.   Financial Statements
        A.   Consolidated Balance Sheets                                              33
        B.   Consolidated Statements of Net Cost                                      34
        C.   Consolidated Statements of Changes in Net Position                       35
        D.   Combined Statements of Budgetary Resources                               36
        E.   Consolidated Statements of Financing                                     37
IV.    Notes to Financial Statements                                                  38
V.     Supplementary Schedules
        A.   Consolidating Balance Sheets                                             56
        B.   Consolidating Statements of Net Cost                                     57
        C.   Consolidating Statements of Changes in Net Position                      58
        D.   Combining Statements of Budgetary Resources                              59
        E.   Consolidating Statements of Financing                                    60
        F.   Supplemental Information – Consolidating Intra-governmental Balances     61
        G.   Investments in GAS Securities – Net By Fund                              62
        H.   Investments in GAS Securities – Net By Fund and Maturity                 63
        I.   Administrative Expenses – By Fund                                        64
        J.   Pension Expense – By Fund                                                65
VI.    Independent Auditors’ Report on Internal Control over Financial Reporting      66
VII. Independent Auditors’ Report on Compliance with Laws and Regulations
     and Other Matters                                                                68
                                    U.S. DEPARTMENT OF TREASURY
                                        DEPARTMENTAL OFFICES
                                         OFFICE OF D.C. PENSIONS
                                              Financial Statements

                                               Table of Contents

                                                                              Page
I.     Introduction
       A.   Statutory Basis and Responsibilities                                 1
       B.   Organizational Structure and Staffing                                1
II.    Executive Summary                                                         2

III.   Strategic Goals/Objectives
       A.   Strategic Objectives and Performance Measures                        3
       B.   Ensure benefit payments are accurate and timely;
            and optimize the use of electronic systems                           8
            1. Program Results
                 a. Benefits Administration                                      8
                 b. System to Administer Retirement (STAR)                      12
            2. Future Focus
                 a. Benefits Administration                                     13
                 b. System to Administer Retirement (STAR)                      13
       C.   Ensure the effective financial management and investment of the
            Pension Funds in the custody of the Treasury                        14
            1. Program Results
                 a. Pension Funds                                               14
                 b. Actuarial Valuation                                         15
                 c. Receipts and Investments                                    15
                 d. Collections                                                 18
                 e. Financial Operations                                        19
                 f. Financial Statement Audit Opinion                           21
            2. Future Focus
                 a. End Interim Benefit Periods/Final Reconciliation            22
                 b. New Cost Sharing Methods                                    22
                 c. Implementation of A-123 Revisions                           22
       D.   Ensure effective management of the organization’s mission           23
            1. Program Results
                 a. Employee Performance and Training                           23
                 b. Organizational Structure                                    23
            2. Future Focus
                 a. Continuing Support and Oversight of DCRB Transition         23
                                           Table of Contents (Continued)


                                                                                            Page
      E.   Ensure quality service to annuitants                                               24
           1. Program Results
               a. Transition of Benefits Administration Functions                             24
               b. Annuitant Satisfaction                                                      24
               c. Retirement Plan Information                                                 24
           2. Future Focus
               a. Office of D.C. Pensions/District of Columbia Retirement Board
                   Performance Indicators                                                     25
               b. Teacher’s Summary Plan Description                                          25
IV.   Six Year History of the D.C. Pensions Program
      A.   Annuitants                                                                         26
      B.   Investments                                                                        27
      C.   Major Spending Categories                                                          29
V.    Limitations of the Financial Statements                                                 30
VI.   D.C. Retirement Protection Improvement Act of 2004 – Impact on Financial Statements     30
 FISCAL YEAR 2005 MANAGEMENT'S DISCUSSION AND ANALYSIS


                                     Mission Statement
                 The mission of the Office of D.C. Pensions is to
                 implement the Secretary's responsibilities under Title XI
                 of the Balanced Budget Act of 1997, Pub. L. 105-33
                 (111 Stat. 251, 712), as amended, by making timely and
                 accurate federal benefit payments associated with the
                 District of Columbia retirement programs for police
                 officers and firefighters, teachers, and judges.


I. Introduction

A. Statutory Basis and Responsibilities

Under provisions in Title XI of the Balanced Budget Act of 1997, as amended (the Act), the
Secretary of the Treasury (the Secretary) assumed certain responsibilities for a specific
population of annuitants under the following District of Columbia (District) retirement
plans: the Police Officers’ and Firefighters’ Retirement Plan, the Teachers’ Retirement Plan
and the Judges’ Retirement Plan. Specifically, the Secretary is responsible for administering
the retirement benefits earned by District teachers, police officers and firefighters based
upon service accrued prior to July 1, 1997, and retirement benefits earned by District judges,
regardless of when service accrued.

The Secretary’s responsibilities include: (1) making accurate and timely benefit payments;
(2) investing fund assets; and (3) funding pension benefits. To carry out these
responsibilities, Treasury’s Office of D.C. Pensions (the Office) engages in a wide range of
legal, policy and operational activities in the areas of benefits administration, information
technology, financial management and administration. The Office coordinates with many
District entities and stakeholders to administer its responsibilities.

All benefit payments that are the responsibility of the Treasury under the District retirement
programs are referred to herein as Federal Benefit Payments. All benefit payments to which
an individual is entitled under the District of Columbia Replacement Plan (pertaining to
police officers, firefighters and teachers based upon service accrued after June 30, 1997) are
referred to as District Benefit Payments.

B. Organizational Structure and Staffing

The Office of D.C. Pensions (the Office) reports to the Assistant Secretary for Management
and Chief Financial Officer (ASM/CFO). The ASM/CFO reports through the Deputy
Secretary to the Secretary of the Treasury.




                                              1
The Office structure consists of three functional areas: (1) financial management and
administration, (2) benefits administration, and (3) information systems management. In
addition, the Office receives support from other Treasury offices, including, in particular,
the Office of General Counsel and the Procurement Services Division. As of
September 30, 2005, within this structure, 23 Treasury positions were funded from the
District of Columbia Teachers, Police Officers and Firefighters Federal Pension Fund
(D.C. Federal Pensions Fund) and the District of Columbia Judicial Retirement and
Survivors Annuity Fund (Judicial Retirement Fund).

Pursuant to a reimbursable services agreement, Treasury’s Bureau of the Public Debt (BPD),
Administrative Resource Center (ARC), performs: systems administration and hosting for
the automated pension/payroll system, accounting, and annuity payroll services.

Through September 25, 2005, the District’s Office of Pay and Retirement Services (OPRS)
served as the interim benefits administrator and the Office reimbursed OPRS for
administrative expenses associated with administering Federal Benefit Payments. As of
September 26, 2005, the District of Columbia Retirement Board (DCRB) assumed these
functions for the Police Officers’ and Firefighters’, and Teachers’ Retirement Plans. The
Office entered into a cost-sharing arrangement with the DCRB for FY 2006.

II. Executive Summary

Fiscal Year 2005 ended with two important milestones in the history of Treasury’s
D.C. Pensions Program. First, after several years of phased development and deployment,
involving significant coordination with District stakeholders, the Office of D.C. Pensions
(the Office) completed the final major component of the System to Administer Retirement
(STAR). STAR is the automated pension/payroll system developed by the Office to replace
the District’s legacy system. Previous deployments in December 2002 and September 2003
enabled STAR to serve all annuitants under the Judges’ Plan, and all teachers, police
officers and firefighters who retired on or before June 30, 1997, and their survivors. In
FY 2005, the Office completed development and implementation of the functionality in
STAR to enter new retirees (i.e., calculate new annuities) under the retirement plans for
teachers, police officers and firefighters, and converted from the District’s legacy system to
STAR the population that retired after June 30, 1997 and their survivors. As a result, as of
August 2005, STAR serves all annuitants under the three District retirement plans. This
significant accomplishment facilitates more efficient benefits administration and more
effective customer service.

Second, effective September 26, 2005, the benefits administration functions previously
performed by the District’s Office of Pay and Retirement Services (OPRS), with respect to
the retirement plans for teachers, police officers and firefighters, transitioned to the District
of Columbia Retirement Board (DCRB). This transition occurred pursuant to legislation
enacted in 2004 that consolidated in one organization the responsibility for financing of
District Benefit Payments (including investment of District retirement funds) and the
responsibility for the benefits administration functions related to District Benefit Payments.
The District, the DCRB and Treasury agreed, pursuant to a new Memorandum of



                                                2
Understanding, that the DCRB would also assume responsibility for administering Federal
Benefit Payments related to these retirement plans. During the course of FY 2005, the
Office devoted significant resources to planning and coordinating with OPRS and DCRB,
and to training new DCRB staff, to ensure an effective transition of functions. The Office
will continue to work closely with the DCRB as it stabilizes its operations and begins to
expand and enhance its services to plan participants. Also effective September 26, 2005, the
Office assumed the role of benefits administrator for the Judges’ Plan.

In addition, on December 23, 2004, the President signed into law legislation that had
originated as an Office initiative. The District of Columbia Retirement Protection
Improvement Act of 2004 amends Title XI of the Balanced Budget Act of 1997 to, among
other things, terminate the District of Columbia Federal Liability Trust Fund and the Federal
Supplemental District of Columbia Pension Fund and transfer the assets to a new fund
entitled the D.C. Federal Pension Fund, effective as of October 1, 2004. This merger of the
assets of the two funds into one fund will promote more efficient investment, accounting,
and financial reporting.

In addition to its focus on the above matters, the Office met its ongoing responsibility to
ensure the accuracy and timeliness of benefit payments and to exercise effective financial
management and investment of funds. Section III of Part 1 of this report provides several
highlights of the Office’s performance of these objectives.

III. Strategic Goals/Objectives

A. Strategic Objectives and Performance Measures

The Office of D.C. Pensions (the Office) has four strategic objectives that contribute to the
achievement of two of the Department of the Treasury’s strategic goals.

      Treasury Goal: Manage the U.S. Government’s Finances Effectively

       Office Objectives:
       1. Ensure benefit payments are accurate and timely; and optimize the use of
          electronic systems.
       2. Ensure the effective financial management and investment of the pension funds in
          the custody of the Treasury.

      Treasury Goal: Ensure Professionalism, Excellence, Integrity, and Accountability in
       the Management and Conduct of the Department of the Treasury

       Office Objectives:
       1. Ensure effective management of the organization’s mission.
       2. Ensure quality service to annuitants.

The following table displays the link between the Office’s four strategic objectives and the
two Treasury strategic goals. It also identifies the Office’s measures and results.



                                              3
A. Office of D.C. Pensions (Office) Strategic Objectives and Performance Measures

Fiscal Years 2005 - 2007                                                                                                 Fiscal Year 2005
Treasury                   Treasury                Office                  Office                       Office
Strategic Goals            Strategic Objectives    Strategic Objectives    Performance Measure          Program Results
F4 - Manage the U.S.       F4C - Make              Ensure benefit          Percentage of monthly        STAR and the District’s legacy system (PAPS)
Government’s Finances      collections and         payments are            benefit payments made        made 100% of the benefits payments to annuitants
Effectively                payments accurately     accurate and timely;    to annuitants by the first   on time.
                           and on time             and optimize the use    business day of the
                           optimizing the use of   of electronic systems   month                    Treasury ensured timely availability of funding for
                           electronic                                                               $464 million in benefit payments to 13,539
                           mechanisms                                                               annuitants and refunded contributions to 215
                                                                                                    former active employees.
                                                                           Percentage of electronic The Office pays 91% of annuitants by direct
                                                                           payments made to         deposit.
                                                                           annuitants
                                                                           New annuitant benefit        The District’s calculation error rate identified in
                                                                           calculation error rate       the quality review process dropped from 7.14% in
                                                                                                        FY 2004 to 2.82% in FY 2005.
                                                                           Secure electronic            Throughout FY 2005, STAR continued to provide
                                                                           pension/payroll system       accurate, secure and timely processing for
                                                                           effectiveness                annuitants under the Judges’ Plan and the nearly
                                                                                                        11,000 pre-1997 annuitants under the plans for
                                                                                                        teachers, police and firefighters. In August 2005,
                                                                                                        Release 3 of STAR was deployed to support the
                                                                                                        calculation of benefits for post-1997 annuitants
                                                                                                        under the plans for teachers, police and firefighters,
                                                                                                        and converted about 3,000 annuitants from the
                                                                                                        District’s legacy system (PAPS). All annuitants
                                                                                                        for whom Treasury is responsible are now serviced
                                                                                                        from STAR. The development and deployment of
                                                                                                        Release 3 was completed on time and under
                                                                                                        budget.




                                                                      4
Fiscal Years 2005 - 2007                                                                                        Fiscal Year 2005
Treasury                   Treasury               Office                 Office                    Office
Strategic Goals            Strategic Objectives   Strategic Objectives   Performance Measure       Program Results
F4 - Manage the U.S.       F4D – Optimize         Ensure the effective   Financial Statement       KPMG LLP, an independent public
Government’s Finances      cash management        financial              Audit Opinion             accounting firm, rendered an unqualified
Effectively (continued)    and effectively        management and         received from an          opinion on the Office’s Financial
                           administer the         investment of the      independent external      Statements.
                           Government’s           Pension Funds in the   auditor
                           Financial Systems      custody of the
                                                  Treasury
                                                                         Issuance of annual        The Office issued its FY 2004 Annual
                                                                         report                    Report in January 2005 and completed steps
                                                                                                   to ensure timely issuance of the FY 2005
                                                                                                   Annual Report.
                                                                         Number of open            KPMG LLP, an independent public
                                                                         financial management      accounting firm, noted no material
                                                                         material weaknesses or    weakness in the Office’s internal controls.
                                                                         corrective actions
                                                                         Accuracy and              The enrolled actuary, Cheiron, issued a
                                                                         timeliness of actuarial   report as of October 1, 2005, providing all
                                                                         report                    information necessary to meet the
                                                                                                   Department’s FY 2005 audit report
                                                                                                   requirements. The actuarial report also
                                                                                                   included the amount of the deposits to be
                                                                                                   made to the D.C. Federal Pension and
                                                                                                   Judicial Funds.
                                                                         Percentage of             Of the 133 payments made to vendors,
                                                                         electronic payments       100% were paid using electronic fund
                                                                         made to vendors timely    transfers. 132 payments were made within
                                                                                                   30 days of receipt.




                                                                 5
Fiscal Years 2005 - 2007                                                                                               Fiscal Year 2005
Treasury                   Treasury               Office                  Office                    Office
Strategic Goals            Strategic Objectives   Strategic Objectives    Performance Measure       Performance Results
F4 - Manage the U.S.       F4D - Optimize cash    Ensure the effective    Amount saved by           The Office saved $86,289 in FY 2005 by meeting the
Government’s Finances      management and         financial management    utilizing early payment   early payment discount incentives.
Effectively (continued)    effectively            and investment of the   discount incentives
                           administer the         Pension Funds in the
                           Government’s           custody of the
                           Financial Systems      Treasury (continued)
                           (continued)
                                                                          Accuracy and timeliness The Office submitted financial information timely to
                                                                          of internal financial    all required entities, closing its books within three
                                                                          reports                  business days each month. The Office’s financial
                                                                                                   approach integrates financial information with its
                                                                                                   resource planning requirements and uses detailed
                                                                                                   expense reports to manage operations.
                                                                          Rate of return on        In FY 2005, the rate of return as a percentage of par-
                                                                          investments              valued investments was 4.67% for the D.C. Federal
                                                                                                   Pension Fund and 5.67% for the Judicial Fund.
                                                                          Minimum of two months In accordance with its investment guidelines, the
                                                                          of available cash and    Office maintained adequate cash balances to meet
                                                                          securities               monthly obligations, with no exceptions.
                                                                          Amount replenished to The D.C. Federal Pension Fund was reimbursed
                                                                          the D.C. Federal Pension $9,258,087 by the District for the District’s portion of
                                                                          and Judicial Retirement refunds paid in FY 2005 through FY 2003. The
                                                                          Fund                     D.C. Federal Pension Fund received $751,722
                                                                                                   through debt prevention efforts and received
                                                                                                   $293,444 through debt collection efforts. The amount
                                                                                                   owed to the Judicial Fund, due to past District errors
                                                                                                   in the interest rate for purchase of service, was
                                                                                                   reduced by approximately $465,000 as a result of
                                                                                                   judges making payments or accepting actuarial
                                                                                                   reductions in their annuities.



                                                                          6
Fiscal Years 2005 - 2007                                                                                                  Fiscal Year 2005
Treasury                     Treasury                Office                 Office                       Office
Strategic Goals              Strategic Objectives    Strategic Objectives   Performance Measure          Program Results
M5 - Ensure                  M5B - Manage            Ensure effective       Percentage of Office         100% of Office employees have a current
Professionalism,             Treasury’s              management of the      employee performance         Individual Development Plan (IDP) which is
Excellence, Integrity, and   resources effectively   organization’s         and training plans           consistent with Office and individual goals.
Accountability in the        to accomplish the       mission                supporting individual
Management and               mission and provide                            employee and Office
Conduct of the               quality customer                               goals
Department of the            service
Treasury
                                                                            Percentage of Office         100% of the Office employees receive quarterly
                                                                            employees receiving          reviews and year end performance ratings.
                                                                            timely performance
                                                                            reviews and feedback
                                                                            Alignment of Office          The Office adjusted its structure to ensure an
                                                                            structure to effectively     appropriate level of focus on benefits
                                                                            accomplish mission           administration and the DCRB transition activities.

                                                     Ensure quality service Percentage of surveyed       A subset of annuitants who contacted the benefits
                                                     to annuitants          annuitants who indicated     administrator received a follow-up call inquiring
                                                                            satisfaction with the        about their satisfaction with the services received.
                                                                            accuracy, timeliness, and    On average, the responses from these follow-up
                                                                            professionalism of service   calls indicate that the services provided were
                                                                            received                     excellent.
                                                                            Quality and timeliness of    The Office began to update the Police Officers’
                                                                            retirement plan              and Firefighters’ Summary Plan Description (SPD)
                                                                            information                  for replacement in early FY 2006. The SPD will
                                                                                                         provide up-to-date, accurate and easy to understand
                                                                                                         information about the Retirement Plan. The Office
                                                                                                         established a dedicated call center to field annuitant
                                                                                                         inquiries related to post-56 military service
                                                                                                         purchases.



                                                                            7
B. Ensure benefit payments are accurate and timely; and optimize the use of electronic
   systems

   1. Program Results

   a. Benefits Administration

   General Operations

   Benefits administration services are provided to 13,539 annuitants, as of
   September 30, 2005, in three District of Columbia retirement plans: the Police Officers’
   and Firefighters’ Retirement Plan, the Teachers’ Retirement Plan, and the Judges’
   Retirement Plan. The annuitant population within each plan is as follows:

                                       Judges, 73


                                                     Teachers,
                                                       5,827
                        Police/Fire,
                           7,639



   In FY 2005, the average monthly payroll totaled approximately $40.2 million.
   With oversight and support by the Office of D.C. Pensions (the Office), the District of
   Columbia’s Office of Pay and Retirement Services (OPRS) performed benefits
   administration services for all three plans. As of September 26, 2005, the benefits
   administration responsibility for the retirement plans for teachers, police officers and
   firefighters transferred to the District of Columbia Retirement Board (DCRB). Also as
   of that date, the Office assumed benefits administration responsibility for the Judges’
   Plan.

   General operations focus largely on transaction processing and customer service
   activities. On a monthly basis, the transaction processing activities represent a variety of
   activities from processing new retirements and/or survivor benefits, to terminating those
   no longer eligible, and to updating annuitants’ personal and benefits information.
   During most of FY 2005, OPRS processed transactions in two automated systems, as
   some annuitants remained on the District’s legacy system until they were converted to
   the System to Administer Retirement (STAR) in August.

   On average in FY 2005, monthly processing in key areas included:

              New Retirements – 21 per month
              New Survivors – 28 per month




                                               8
Equally important to transaction processing is customer service. A dedicated OPRS
team provided customer support to the annuitant population. The customer service team
performed a wide range of activities, including resolving annuitant inquiries.

On average in FY 2005, monthly support from the customer service team included:

           Answering Calls - 461 per month
           Servicing Walk-ins - 52 per month

The Office encourages annuitants to receive benefits through direct deposit. By the end
of FY 2005, 90% of retired police officers and firefighters or their survivors, 92.1% of
retired teachers or their survivors, and 90.5% of retired judges or their survivors received
their monthly benefit payments by direct deposit.

                                Direct Deposits
        100%



           95%


                                       92.1                               2004
           90%                  91.0              91.0
                                                         90.5
                        90.0                                              2005
                 89.0


           85%



           80%
                 Police/Fire     Teachers           Judges

In FY 2005, a variety of outreach efforts provided accurate and timely information to
annuitants, including:

           Letters notifying annuitants when their benefits changed
           Earning Statement messages alerting annuitants to changes (such as a
            cost-of-living adjustment) or opportunities (e.g., signing up for direct deposit)
           Semi-annual newsletter, The STAR Bulletin, which provides the
            annuitants with benefit information and highlights on current events/projects
           Special correspondence providing annuitants with detailed individual
            information when a unique change has occurred (e.g., recalculations due to
            longevity rule changes)




                                              9
Quality Review

Each month the OPRS Quality Assurance Specialist reviewed new retirement and
survivor cases prepared by the examiners. The Specialist provided the OPRS examiners
with feedback to ensure accuracy and assess training needs for all staff. Also, each
month the Office performed quality assurance reviews on a statistical sample of new
retiree and survivor cases. The Office provided appropriate feedback to the benefits
administrator. The error rate identified in the Office’s review process dropped from
7.14% in FY 2004 to 2.82% in FY 2005. Of the 142 cases reviewed in FY 2005, there
were only four calculation errors, involving underpayments of less than $50.

Special Projects

Implementation of Legislation Regarding Post-1956 Military Service Purchase

The District of Columbia Military Retirement Equity Act of 2003, Pub. L. 108-133, was
enacted on November 22, 2003. This legislation allows D.C. Police Officers’ and
Firefighters’ Retirement Plan members to purchase retention of credit for military
service performed after December 31, 1956 (post-56). Members who purchase such
credit avoid a benefit reduction when they reach social security full retirement age and
eligibility. In FY 2004, the Office focused mainly on the population who had already
reached social security full retirement age and received a benefit reduction, or were
nearing social security full retirement age. Approximately 280 annuitants completed
their purchase of service in FY 2004, and where applicable, had their annuities restored.
In early FY 2005, the Office began focusing on the remaining retired population of
approximately 4,000 annuitants. In FY 2005, approximately 375 additional annuitants
completed their purchase of service and deposited approximately $160,000 into the
D.C. Federal Pension Fund. The Office estimates that an additional 1,000 annuitants
will need to complete a purchase of service to avoid a future benefit reduction.
Annuitant communication and purchase activities will continue throughout FY 2006.

The Office also worked with the District to ensure implementation of appropriate
procedures to: (1) advise the active population of the legislation; (2) provide for the
purchase of service credit in advance of retirement; and (3) ensure the transfer of federal
deposits to the D.C. Federal Pension Fund.

Implementation of Legislation Regarding Longevity Adjustments

In December 1999 and December 2000, respectively, District and federal statutes were
enacted that require the calculation of retirement benefits for District police officers to
include longevity pay in their salary at the time of retirement. Resolution of issues
involving the implementation methodology and eligibility for the longevity retirement
pay adjustment resulted in a phased implementation of the District and federal statutes,
completed in FY 2005.




                                           10
The methodology issue was resolved by the enactment of District legislation on
October 19, 2002, and federal legislation on November 7, 2002. In FY 2003, Treasury
began implementing the federal legislation for the pre-97 retirees (i.e., retired on or
before June 30, 1997). The Office completed this phase in FY 2005, with
1,374 annuitants receiving approximately $11 million in retroactive payments,
$30,000 of which was paid out in FY 2005. The eligibility issue was resolved in
FY 2004 by the District’s enactment of the Police and Firemen’s Longevity Amendment
Act of 2003. The Office then began implementing the legislation for the post-97 retires
(i.e., retired after June 30, 1997). The Office completed this phase by mid-FY 2005,
with approximately 475 annuitants receiving a total of $7 million in retroactive
payments, $2 million of which was paid in FY 2005.

In addition, the Office worked with OPRS in FY 2005 to implement procedures to
ensure the inclusion of longevity pay in the initial calculation of annuities as individuals
retired. The April 2005 payroll was the first pay cycle that reflected the inclusion of
longevity pay in the initial retirement calculations.

Collective Bargaining Agreement (Police Officers)

On June 7, 2005, the D.C. Council approved annual pay increases for active police
officers retroactive to October 2003, as contained in a collective bargaining agreement.
These increases have an impact on two different populations of retired police officers.
First, the level of pay increases for active police officers determines the level of annual
retirement benefit increases applicable for police officers who retired prior to
February 15, 1980. Approximately 1,000 retirees in this population are entitled to an
“equalization” adjustment and retroactive payments attributable to the 2003, 2004 and
2005 pay increases. The Office implemented these adjustments in the
September 1, 2005 annuity payments and made retroactive payments in the
September 1, 2005 and October 1, 2005 payments.

Second, because the collective bargaining agreement provided for pay increases
retroactive to October 1, 2003, the annuities for approximately 130 police officers who
retired after October 1, 2003 needed to be recalculated to account for changes in the
retirees’ final average earnings. In addition, retroactive benefits had to be calculated for
these annuitants. The Office completed this recalculation and retroactive payment effort
in October 2005.

Judges Purchase of Service

The Office previously determined that the District had used incorrect methods to
calculate the interest cost for judges to purchase credit for non-judicial service. Since
October 2001, at the Office's direction, active judges who initiate a purchase of service
pay the correct amount of interest. In FY 2004, active judges who had paid incorrect
amounts for purchases of service prior to October 2001 received notices for the amounts
owed. At the end of FY 2004, judges owed amounts totaling, in the aggregate,
approximately $820,000. In FY 2005, the amount owed was reduced by approximately



                                           11
$465,000 as a result of judges making payments or accepting actuarial reductions in their
annuities. The Office made substantial progress in FY 2005 resolving the issue of the
remaining amounts owed by the judges who had paid incorrect amounts for purchase of
service and anticipates completion of this effort in early FY 2006.

b. System to Administer Retirement (STAR)

The System to Administer Retirement (STAR) is the automated pension/payroll system
developed by the Office, in cooperation with the District, to replace the District’s legacy
system. STAR supports the end-to-end business processes for retirement, streamlines
the administration and payment of pension benefits to annuitants, and enhances customer
service. STAR enables retirement examiners to quickly access information and provide
annuitants with real-time customer service.

STAR is based on Oracle/PeopleSoft’s off-the-shelf software for human resources,
pensions, and payroll administration. The Office implemented Release 1 of STAR in
December 2002 to serve all annuitants of the Judges’ Retirement Plan. The Office
implemented Release 2 of STAR in September 2003 to serve teachers, police officers
and firefighters who retired on or before June 30, 1997, and their survivors. The STAR
system received full security certification and accreditation in January 2003, and this
was completely updated in August 2004.

STAR Release 3 – Implementation in August 2005

In FY 2005, Treasury and the District continued to develop and enhance STAR to serve
individuals who retired after June 30, 1997, and their survivors, under the retirement
plans for District teachers, police officers and firefighters. The requirements were
validated by the OPRS, the DCRB and the Office. District staff participated in design
review sessions and in various stages of testing. The inclusion of District staff in the
system development process greatly contributed to the users’ understanding and
readiness for deployment. The Office implemented Release 3 on August 3, 2005.

Concurrent with the development of the new functionality in Release 3, Treasury and the
District executed a plan to convert the approximately 3,000 post-1997 retirees and their
survivors from the legacy District system to STAR. The conversion occurred with the
cutover to Release 3, effective August 3, 2005.

As a result of the implementation of Release 3, including the conversion to STAR of the
annuitants on the District’s legacy system, STAR now serves all annuitants under the
three retirement plans. All new retirees and survivors will be processed in STAR and
the District’s legacy system will no longer be used for Federal or District Benefit
Payments.




                                          12
Change Control Board

The Office established the STAR Change Control Board (CCB) in FY 2002 as the
approving authority for all system changes. The CCB evaluates the costs, benefits, and
risks associated with any proposed change, and prioritizes the work relating to approved
changes. The CCB process enhances accountability and internal controls. During
FY 2005, the CCB reviewed eight change requests and approved two. Also during
FY 2005, the CCB monitored the progress of seven previously approved change
requests. In addition to Release 3 and the conversion (discussed above), the three major
change requests deployed in FY 2005 are: (1) the replacement of the monthly batch
process with a real time process to transfer pension calculations to the payroll module;
(2) the automation of off cycle payments and disbursement reporting; and (3) the
addition of functionality for one time manual payments of beneficiaries and estates.

2. Future Focus

a. Benefits Administration

As discussed above, on September 26, 2005, benefits administration duties transferred
from the OPRS to the DCRB. The Office’s oversight, onsite support and quality review
activity will be enhanced in the initial months after the implementation of Release 3 of
STAR and transition to the DCRB. The Office will continue to foster a sound transition
of benefits administration services and will work closely with the DCRB to stabilize and
enhance the nature and quality of operations.

b. System to Administer Retirement (STAR)

PeopleSoft Upgrade

STAR operates on older versions of the Oracle/PeopleSoft products, which will only be
supported by the company through early calendar year 2007. It is therefore increasingly
important to plan and execute a project to upgrade to more current software versions.
An upgrade will better position the Office to take advantage of functional and technical
enhancements incorporated in the newer software versions. In FY 2006, the Office plans
to complete and baseline a plan for an upgrade of PeopleSoft 8.0 and PeopleTools 8.1.8
and begin execution of the plan.

Split Benefit Calculation Functionality

Title XI of the Balanced Budget Act of 1997, as amended, states that the interim benefits
period began on October 1, 1997, and ends on the date Treasury notifies the District that
a trustee or Treasury will assume the duties of benefits administrator. With respect to
the retirement plan for teachers, police officers and firefighters, the Treasury will not end
the interim benefit period until STAR is enhanced to calculate the split between federal
and District liability for post-June 30, 1997 retirees and their survivors. Split benefit
calculations are complex and will be based on a detailed set of regulations issued by



                                           13
   Treasury in December 2001. These regulations are not effective until Treasury formally
   ends the interim benefits period.

   In FY 2006, the Office will work with the DCRB to complete and baseline a plan for the
   design, development and implementation of split benefit functionality in STAR, and
   begin execution of the plan.

   Technical Production Support and Hosting

   As noted above, technical production support and hosting for STAR is performed by the
   Treasury’s Bureau of the Public Debt (BPD), Administrative Resource Center (ARC).
   Since the deployment of Release 2, ARC staff members have led production support
   activities, including: routine computer operations, application and database
   administration, help desk operations and problem resolution. Some of these services
   were previously provided to the Office under the contract with the systems integrator,
   which has remained available to supplement the resources of ARC. In FY 2006, the
   Office will focus on completing the knowledge transfer from the system integrator to
   ARC so that the Office can rely fully on technical support from ARC without support
   from the systems integrator. This will ensure that the ARC staff members have a solid
   understanding of the STAR requirements, design, configuration and testing.

C. Ensure the effective financial management and investment of the Pension Funds in
   the custody of the Treasury

   1. Program Results

   a. Pension Funds

   The District of Columbia Retirement Protection Improvement Act of 2004,
   Pub. L. 108-489, signed by the President on December 23, 2004, terminated the District
   of Columbia Federal Pensions Liability Trust Fund (Trust Fund) and the Federal
   Supplemental District of Columbia Pensions Fund (Supplemental Fund), and transferred
   the assets to a newly created fund, the District of Columbia Teachers, Police Officers,
   and Firefighters Federal Pension Fund (D.C. Federal Pension Fund), effective,
   October 1, 2004. The creation of a single fund to support federal pension liability for
   police officers, firefighters and teachers will promote more efficient investment,
   accounting and financial reporting.

   Accordingly, as of October 1, 2004, the Office of D.C. Pensions (the Office) administers
   Federal Benefit Payments through two funds:

             The District of Columbia Teachers, Police Officers, and Firefighters
              Federal Pension Fund (D.C. Federal Pension Fund) makes Federal Benefit
              Payments and pays necessary administrative expenses for the Police Officers’
              and Firefighters’, and Teachers’ Retirement Plans. The D.C. Federal Pension
              Fund is not a typical pension fund in that it does not receive employee and



                                            14
           employer contributions. The sources of funding for the D.C. Federal Pension
           Fund are: an annual payment from the District of Columbia Retirement Board
           (DCRB); an annual federal payment amortizing the unfunded liability
           assumed from the District and any additional liabilities; and interest earned
           on investments.

          The District of Columbia Judicial Retirement and Survivors Annuity
           Fund (Judicial Retirement Fund) accumulates funds to finance Federal
           Benefit Payments and necessary administrative expenses of the Judicial
           Retirement Plan. There are three funding sources for the Judicial Retirement
           Fund: employee contributions; an annual federal payment amortizing the
           unfunded liability assumed from the District and any additional liabilities;
           and interest earned on investments.

b. Actuarial Valuation

The Act requires that actuarial valuations be conducted annually by an enrolled actuary
and that the actuary determine annual federal payments to amortize the unfunded
liabilities of the retirement plans. In FY 2005, the Office contracted with Cheiron to
perform the annual actuarial valuation.

As estimated by the actuary, as of October 1, 2005, the Federal Government’s total
liability for Federal Benefit Payments under the Police Officers’ and Firefighters’, and
Teachers’ Retirement Plans is approximately $8.4 billion. The liability for Federal
benefit Payments under the Judges’ Retirement Plan is approximately $136.7 million.

In the October 1, 2005 valuation, Cheiron determined that the annual payment in
FY 2006 from the General Fund of Treasury to the D.C. Federal Pension Fund will be
$284.5 million. The annual payment in FY 2006 from the General Fund of Treasury to
the Judicial Retirement Fund, excluding and amount for FY 2006 administrative
expenses, will be $6.7 million.

c. Receipts and Investments

The pension funds summary for FY 2005 (two funds) and FY 2004 (three funds) are set
forth in the tables below. Investments are valued at cost, adjusted for unamortized
premiums and discounts, if applicable. The premiums and discounts are recognized as
adjustments to interest income, utilizing the effective interest method.




                                          15
               Pension Funds FY 2005 Financial Highlights ($ millions)

 FY 2005                      D.C. Federal        Judicial Fund             Total
                              Pension Fund
 Receipts:
 Interest                             $180.4                  $5.4               $185.8
 Reimbursement from
 DCRB                                    $16.2                $0.0                  $16.2
 Deposits from General
 Fund                                 $277.0                  $7.0               $284.0
 Deposits/Contributions
 from Plan Participants                   $0.0                $0.6                   $0.6

 Net Investments                    $3,762.5                $107.4             $3,869.9


               Pension Funds FY 2004 Financial Highlights ($ millions)

 FY 2004                    Trust Fund     Supplemental       Judicial        Total
                                              Fund             Fund
 Receipts:
 Interest                         $92.9            $81.4             $5.3       $179.6
 Reimbursement from               $10.9             $0.0             $0.0        $10.9
 DCRB
 Deposits from General             $0.0           $270.0             $7.5       $277.5
 Fund
 Deposits/Contributions            $0.0              $0.0            $0.6           $0.6
 from Plan Participants

 Net Investments               $1,717.7          $2,087.9         $101.9      $3,907.5

Treasury Securities

Each fund is invested in non-marketable Treasury securities, as required by law. The
Bureau of the Public Debt (BPD) invests the assets of the pension funds based on
investment guidance from the Office. The Office follows a “ladder” approach,
scheduling maturities in amounts sufficient to meet the obligations projected by annual
actuarial valuations. Investment policy in the pension funds strikes a balance between
ensuring the Office can meet short-term obligations, and extending the ladder. In
FY 2005, the cash balance available for contingencies was targeted not to fall below
approximately two months of obligations ($86 million) plus the estimated amount
payable for retroactive longevity increases ($1.4 million), or approximately $88 million.
The Office invested cash balances in one-day certificates, except for an uninvested
balance of $250,000 at month end, to cover unanticipated withdrawals on the last day of
the month.



                                          16
Deposits (Warrants, Interest, District Reimbursements and Judges Employee
Contributions)

Warrants

As required by the Act, Treasury makes annual payments from the General Fund of the
Treasury to the Judicial Retirement Fund and the D.C. Federal Pension Fund to amortize
the original unfunded liabilities of the retirement programs assumed by the Federal
Government over 30 years, the net experience gains or losses over 10 years, and any
changes in actuarial liabilities over 20 years; and for amounts necessary to fund covered
administrative expenses for the year. The annual payment to the Judicial Retirement
Fund also includes an amount necessary to fund the normal cost of the retirement
program. Consistent with the Act, these deposits are made in September each year and
are invested in non-marketable Treasury securities with maturities consistent with the
expected payment dates of the pension liabilities. In FY 2005, $277 million was
deposited into the D.C. Federal Pension Fund and $7 million into the Judicial Retirement
Fund. In FY 2004, $270 million was deposited into the Supplemental Fund and
$7.5 million was deposited into the Judicial Retirement Fund.

Interest

In FY 2005, the Office received $180.4 million of interest in the D.C. Federal Pension
Fund and $5.4 million in the Judicial Retirement Fund. The rate of return in FY 2005
for the Office’s pensions funds was 4.7% for the D.C. Federal Pension Fund and
5.7% for the Judicial Fund. In FY 2004, the Office received interest of $92.9 million in
the Trust Fund, $81.4 million in the Supplemental Fund and $5.3 million in the Judicial
Fund. The rate of return in FY 2004 for the Office’s pensions funds was 4.9% for the
Trust Fund and Supplemental Fund, and 5.7% for the Judicial Fund. The rate of return is
calculated by dividing interest earned from GAS securities by the average par value of
Investments in GAS securities. Interest earned from GAS securities includes the
amortization of premiums and discounts.

District Reimbursements

Because neither the District’s automated system nor STAR has the capability to
calculate split benefit payments, Treasury initially funds all benefit payments under the
Police Officers’ and Firefighters’, and Teachers’ Retirement Plans. Pursuant to the First
Amended MOU (September 28, 2000), the District reimburses the D.C. Federal Pension
Fund annually for estimated District Benefit Payments made by Treasury for the prior
fiscal year. In January 2005, the District of Columbia Retirement Board (DCRB)
reimbursed Treasury $16.2 million for the estimated District Benefit Payments made in
FY 2004 by Treasury on the District’s behalf.

In January 2006, DCRB will reimburse Treasury for the estimated District Benefit
Payments made by Treasury on the District’s behalf during FY 2005. The DCRB
actuary determines the reimbursement amount. At this time, based on an actuarial



                                         17
valuation as of October 1, 2005, the Office’s actuary estimates the amount of the
reimbursement to be $22.2 million. This process will be repeated until STAR is capable
of calculating the split between federal and District liability for annuitants with service
both before and after June 30, 1997.

Judges’ Employee Contributions

Active judges are required to contribute 3.5% of salary to the Judicial Retirement Fund
to pay for part of the cost of their retirement benefits. Active judges who elect a
survivor annuity contribute an additional 3.5% of salary. Active judges’ contributions to
the retirement fund in FY 2005 totaled approximately $553,000. Retired judges who
elected a survivor annuity are required to contribute 3.5% of retirement salary. In
FY 2005, retired judges contributed approximately $120,000 to the retirement fund.

d. Collections

Refund Reconciliation Project

The First Amended MOU required Treasury to pay the total amount of refunds of
employee contributions during the interim benefits period. On February 1, 2005,
Treasury entered into a special MOU with the DCRB and the District of Columbia’s
Office of Pay and Retirement Services (OPRS) concerning refunds of employee
contributions under the Police Officers’ and Firefighters’, and Teachers’ Retirement
Plans. This refunds MOU required the District and Treasury to fund amounts paid on
and after February 1, 2005 in accordance with the respective statutory responsibilities
(i.e., refunds of contributions deducted from employee salary on or before
June 30, 1997, are a federal liability and refunds of contributions deducted after
June 30, 1997, are a District liability). The District also agreed to reimburse Treasury
for that portion of refunds paid by Treasury prior to February 1, 2005 that represent
contributions deducted and withheld from an employee’s salary or deposits after
June 30, 1997. In FY 2005, the Office began a process of reconciling all refunds made
prior to February 1, 2005. The Office requested reimbursement of approximately
$13 million from the District for FY 2005 through FY 2002 and established a
$5.1 million receivable for FY 2001 through FY 1998. In FY 2005, the District paid
Treasury $9,258,087 for its share of the refunds paid from FY 2005 through FY 2003.
The Office anticipates completion of the refund reconciliation project in early FY 2006.




                                          18
                                     Refund Reconciliation Project
               $7


               $6


               $5
Millions ayz




               $4                                                              Treasury
                                                                               District
                                                                               Total Refunds
               $3


               $2


               $1


               $0
                    1998   1999   2000   2001   2002   2003   2004   2005*


*Fiscal Year 2005 includes refunds paid from October 1, 2004, through February 15, 2005.
 Note: Fiscal Years 1998 through 2001 are estimates.

Debt Collection

During FY 2005, the Office pursued debt prevention and collection efforts working with
the annuity payroll team at the Administrative Resource Center (ARC), which manages
the debt collection process for the Office. In FY 2005, debt prevention efforts ensured
that a total of $751,722 was immediately recovered upon timely notification of an
annuitant’s death or in cases of payment errors. Through debt collection efforts
$293,444 was collected through offsets, lump sum payments or installment payments.

e. Financial Operations

Oracle Federal Financials Conversion

On October 1, 2004, the Office worked with BPD to successfully convert to the Oracle
Federal Financial (OFF) from the Federal Financial System. OFF is a JFMIP-certified
core financial management product used to process all financial transactions. The
Office’s transactions are entered into OFF both manually and via custom interfaces from
ancillary systems. The reporting system in OFF allows for creating various report
options based on the user needs.




                                                 19
3-Day Close

Since April 2001, the Office has closed its books each month within three working days.
The Office has been rated green (the highest rating) since February 2002 for all data
quality checks on the monthly data quality scorecard maintained by Treasury’s Office of
Accounting and Internal Control.

Prompt Payment

The Office paid 99.2% of the invoices received within the timeframes required by the
Prompt Payment Act and OMB Circular A-125. Generally, the law requires payment
within 30 days from the later of either the receipt of a proper invoice or acceptance of
the services. If this timeframe is not met, an interest penalty must be paid to the vendor.

Within Treasury, the standard for the timely payment rate is that no more than 2% of the
invoices subject to prompt payment shall be paid late (i.e., at least 98% paid within
30 days). In FY 2005, the Office's prompt payment rate was within the Treasury
standard with only one invoice paid late due to an administrative error.

                  Number of Invoices Paid                 133
                  Number of Invoices Paid Late             1
                  Interest Penalties Paid                  0
                  Percentage of Invoices Paid Late         .8%

Electronic Vendor Payments

For reasons of reliability and security, Treasury's Fiscal Assistant Secretary and the
Financial Management Service encourage federal agencies to use electronic payments.
In FY 2005, the Office paid 100% of the 133 vendor payments by electronic funds
transfer.

Vendor Payment Discounts

Starting with the July 2003 invoice, the Office’s systems integration contractor began
offering an early payment discount as an incentive to make payments in less than the
30 days prescribed in the Prompt Payment Act. The discounts are:

        1% for payment within 10 days of the invoice date
        1/2% for payment within 20 days of the invoice date

As a result, the Office saved $86,289 in FY 2005 by making payments within 10 days of
the invoice date.




                                          20
Administrative Expenses

The Office funds all administrative expenses to support the federal responsibilities under
the retirement programs under the Act from the D.C. Federal Pension Fund and the
Judicial Retirement Fund. When administrative expenses related to activities that
benefit all of the retirement programs occur, expenses are allocated 90% to the
D.C. Federal Pension Fund and 10% to the Judicial Retirement Fund. When expenses
benefit only one group or the other, or when a different allocation is clearly appropriate,
expenses are charged accordingly.

In FY 2005, administrative expenses were approximately $18 million for the
D.C. Federal Pension Fund and $1.5 million for the Judicial Retirement Fund, for a total
of $19.5 million. In FY 2004, administrative expenses were approximately
$18.7 million for the Trust Fund and $1.7 million for the Judicial Retirement Fund, for a
total of $20.4 million. Administrative expenses in FY 2005 as compared to FY 2004,
decreased by $.9 million due primarily to a decrease in contractual costs.

The major administrative expenses of the D.C. Pensions Program result from
reimbursement of District administrative expenses, Treasury staff salaries and benefits,
and vendors engaged by the Office to provide IT systems development and support of
benefits administration activities. During FY 2005, Treasury incurred approximately
$2 million of reimbursable expenses with the District, compared with $1.4 million in
FY 2004. Pursuant to a Memorandum of Understanding with the DCRB, the District
reimbursement for FY 2005 includes expenses for a portion of costs the DCRB incurred
in anticipation of the transfer of benefit administration responsibilities from OPRS to the
DCRB.

As of September 26, 2005, the DCRB became responsible for the benefits administration
functions previously performed by OPRS. In FY 2006, Treasury will reimburse the
DCRB for expenses incurred in administering federal benefits.

Certain costs of the System to Administer Retirement (STAR) pension/payroll system
for hardware, software, and system development were capitalized as equipment and
internal use software. The Office has been amortizing -- since January 2003 in the
Judicial Retirement Fund, and since September 2003 in the D.C. Federal Pension Fund --
direct costs incurred to develop STAR. Capitalized costs in the D.C. Federal Pension
Fund and Judicial Retirement Fund will be amortized monthly on a five-year schedule.

f. Financial Statement Audit Opinion

KPMG LLP (KPMG), an independent public accounting firm, rendered an unqualified
opinion on the Office’s FY 2005 financial statements. This is the seventh consecutive
year that the Office’s financial statements have received an unqualified opinion.

KPMG noted no material weaknesses in the Office of D.C. Pensions internal control
process and its operations. Also, the results of the KPMG tests of compliance with laws



                                          21
and regulations disclosed no instances of noncompliance that require reporting under
Government Auditing Standards or OMB Bulletin No. 01-02.

2. Future Focus

a. End Interim Benefit Periods/Final Reconciliation

On September 26, 2005, the Office ended the interim benefits period for the Judges’
Plan and designated the Office as the benefits administrator. After the project to
calculate split benefits has been implemented, the Office will end the interim benefits
period for the retirement plans for District teachers, police officers and firefighters. The
Office will then work with the District to conduct the final reconciliation, accounting for
transactions during both interim benefits periods. The final reconciliation will include,
among other things, an accounting of the amounts related to federal and District
responsibilities for benefits paid to plan members who retired after June 30, 1997.

In Section 10 of the First Amended MOU (which remains in full force and effect under
the terms of the new MOU executed in September 2005), the Treasury and the District
agreed on the approach and requirements of the final reconciliation. The major
requirements are that: (1) the District and DCRB provide audited reports of their
transactions affecting the retirement funds during the interim benefits period; and (2) the
Treasury calculates split benefit payments for plan members who retired during the
interim benefits period and reconciles these payments with amounts actually paid by the
District to Treasury during the interim benefits period. The final reconciliation will
identify amounts owed to Treasury by the District and vice-versa.

b. New Cost Sharing Methods

As of September 26, 2005, the DCRB assumed interim benefit administration
responsibilities for the Police Officers’ and Firefighters’ Retirement Plan and the
Teachers’ Retirement Plan. In FY 2005, the Office and the DCRB developed a
methodology for allocating costs incurred by both entities in administering District and
Federal Benefit Payments. The methodology includes consideration of: (1) the number
of active employees, 100% federal annuitants and split annuitants; (2) the estimated
DCRB resources needed to support these populations; and (3) the number of employees
throughout DCRB who are dedicated to supporting the benefits administration function.
Applying this methodology, the Office and the DCRB entered into a cost sharing
agreement for reimbursement of FY 2006 actual expenses. Pursuant to the agreement,
the DCRB’s expenses in administering Federal Benefit Payments will be reimbursed by
the Office and the Office’s expenses in developing and operating STAR to administer
District Benefit Payments will be reimbursed by the DCRB.

c. Implementation of A-123 Revisions

The Office is working with the Chief Financial Officer’s Internal Control Working
Group to develop guidelines for implementing the requirements of revised



                                           22
   OMB Circular A-123. The Office will implement a process, consistent with these
   guidelines, for assessing the effectiveness of its internal controls over financial reporting.

D. Ensure effective management of the organization’s mission

   1. Program Results

   a. Employee Performance and Training

   The Office of D.C. Pensions (the Office) managers worked with each employee to
   achieve the Office’s and individual goals through frequent performance feedback,
   training and development. Management conducts quarterly performance reviews with
   each employee. Each employee has an Individual Development Plan, which is
   monitored throughout the year. All employees participate in required and optional
   training. Opportunities for employee development play an important role in decisions on
   allocation of work assignments.

   b. Organizational Structure

   In FY 2005, the Office implemented initial steps to adjust the structure of the Office to
   ensure an appropriate level of organizational focus on benefits administration matters,
   independent of information technology system development. The Office eliminated the
   position of Deputy Director and created three functional groups headed by a manager
   reporting directly to the Director: (1) Financial Management and Administration;
   (2) Benefits Administration; and (3) Information Systems. Previously, expertise and
   responsibility for benefits administration issues existed in multiple parts of the
   organization, with a heavy concentration in the information systems section. As
   significant milestones in system development were nearing completion, and as the
   functions performed by the District’s Office of Pay and Retirement Services (OPRS)
   were transferring to the District of Columbia Retirement Board (DCRB), the needs of
   the Office in the area of benefits administration were also evolving. To ensure an
   appropriate level of coordination and attention to this critical functional area, the Office
   determined that a distinct benefits administration organizational unit should be created.

   2. Future Focus

   a. Continuing Support and Oversight of DCRB Transition

   As discussed above, the Office began a realignment of structure to ensure appropriate
   focus on benefits administration matters. The Office anticipates that as the DCRB
   stabilizes its operations in the areas previously performed by OPRS and begins to
   expand and enhance the quality and nature of its services to both the active and retired
   members of the plans, the nature of the support and oversight provided by the Office will
   likely change. The Office will watch this development closely and will adjust its focus,
   allocation of resources and structure as necessary.




                                              23
E. Ensure quality service to annuitants

   1. Program Results

   a. Transition of Benefits Administration Functions

   In FY 2005, the Office of D.C. Pensions (the Office) led a coordination effort with the
   Office of Pay and Retirement Services (OPRS) and the District of Columbia Retirement
   Board (DCRB) to facilitate a smooth transition of benefits administration functions for
   the Police Officers’ and Firefighters’, and Teachers’ Retirement Plans from OPRS to
   DCRB, effective September 26, 2005. This effort included coordination of four teams,
   focusing on people, processes, technology and facilities. A new memorandum of
   understanding (MOU) was negotiated between the District, the DCRB, Treasury,
   D.C. Public Schools, and the Courts, terminating (with the exception of one provision)
   the First Amended MOU (as amended on September 28, 2000). The new MOU reflects
   the changes in responsibilities of the parties based on the transition as well as other
   developments. In addition, the Office negotiated a separate MOU with the D.C. Courts
   to reflect the assumption by the Office of benefits administration functions for the
   Judges’ Plan.

   b. Annuitant Satisfaction

   Beginning in November 2004, the Office began measuring annuitants’ satisfaction with
   customer service. A subset of annuitants who contacted the benefits administrator (the
   District’s Office of Pay and Retirement Services) either by phone or in person during the
   month received a follow-up call. The annuitants were asked to assess the customer
   service representative’s:

             Ability to address the annuitant’s concern
             Knowledge of the issue
             Level of professionalism

   In FY 2005, on average the responses indicated that annuitants viewed the services
   provided as excellent and that most issues were resolved satisfactorily with a single
   contact.

   c. Retirement Plan Information

   Police and Firefighters Summary Plan Description

   In FY 2005, work began to update the Summary Plan Description (SPD) for the District
   of Columbia Police Officers' and Firefighters' Retirement Plan. The SPD is designed to
   provide plan members with accurate and easy to understand information about the
   Retirement Plan. The SPD was last updated in October 2002. Some significant changes
   have occurred to the Plan since that time. A revised version is scheduled for release in




                                             24
mid-FY 2006. The Office is leading this effort, with input and coordination provided by
DCRB and several other District stakeholders.

Post-56 Legislation Communication

As discussed in section B.1.a., above, in FY 2005, the Office made substantial progress
in implementing the District of Columbia Military Retirement Equity Act of 2003,
Pub. L. 108-133. A major component of the project includes a very complex
communication effort. The Office worked closely with the District to ensure accurate,
clear and timely communications. The Office established a dedicated call center to field
annuitant inquiries and a dedicated post office box to handle all correspondence. As a
result of the communications, annuitants have made fully informed decisions on whether
they are affected by the legislation and whether purchasing retention of credit for post-56
military service is beneficial. In FY 2006, the Office will continue communication and
purchase activities with the estimated 1,000 annuitants affected by the legislation who
have not yet completed their purchase of post-56 military service.

2. Future Focus

a. Office of D.C. Pensions/District of Columbia Retirement Board Performance
   Indicators

Using the existing measures as a baseline, the Office will work with the DCRB, as the
new benefits administrator, to implement performance indicators. The indicators are
projected to be a balance between accuracy, timeliness, quality, and cost effectiveness.

b. Teachers Summary Plan Description

The SPD for annuitants under the District of Columbia Teachers’ Retirement Plan (Plan)
was last updated in October 2002. In FY 2006, work will begin to update the Teachers
SPD. A revised version is scheduled for release in early FY 2007. The Office and the
DCRB will work collaboratively on this effort. In addition, input will be requested from
various District stakeholders.




                                          25
  IV. Six Year History of the District of Columbia Pensions Program

  A. Annuitants

                                         Police Officers’ and Firefighters’, and Teachers’
                                                          Retirement Plans
            16
                                                                             Police/Fire
            14                                                               Teachers

                     7,811   7,815    7,825     7,792    7,673    7,639
            12                                                             The number of annuitants (including
                                                                           survivors) has remained relatively constant
            10                                                             over recent years. There was a slight
Thousands




                                                                           increase (2%) over the past year.
            8
                                                                           Pension Population
            6                                                              Year Annuitants
                                                                  5,827    2000 13,084
                     5,273   5,331    5,396    5,517     5,497
            4                                                              2001 13,146
                                                                           2002 13,221
            2                                                              2003 13,309
                                                                           2004 13,170
            0                                                              2005 13,466
                     2000    2001      2002     2003      2004    2005




                                               Judges’ Retirement Plan
             80

             70
                                                                    73
                                                  66        69
             60        62       63      66

             50
                                                                           The number of annuitants
                                                                           (including survivors) has
             40
                                                                           increased gradually.
             30

             20

             10

                 0
                      2000     2001     2002      2003     2004     2005




                                                            26
B. Investments

                                       Supplemental, Trust and D.C. Federal Pension Funds
                                                        Net Investments
                      $4




                                                                                                                                   3.762
                      $3                                                                                                                   All funds are invested in
                                   3.037


                                                                                                                                           non-marketable Treasury
  Billions xyz




                                                      2.772
                                                                                                                                           securities. The assets of


                                                                             2.463
                                                                                                                                           the Supplemental and
                      $2                                                                                                                   Trust Funds as of




                                                                                                          2.087
                                                                                                2.107
                                                                                                                                           October 1, 2004, were

                                                                                        1.738




                                                                                                                   1.717
                                                                                                                                           combined to create the
                                                                                                                                           D.C. Federal Pension
                                                                     1.402



                      $1                                                                                                                   Fund.
                                              1.095
                            .857




                      $0
                                2000              2001                   2002               2003               2004            2005

                       Supplemental Fund                                      Trust Fund                          D.C. Federal Pension Fund




                                                                       Judicial Retirement Fund
                                                                           Net Investments

                      $120

                                                                                                                                       107.4
                      $100
                                                                                                                           101.9
                                                                                                        95.8
                                                                                     90.6                                                        All funds are invested in
                       $80                                    86.9                                                                               non-marketable Treasury
                                       82.3
                                                                                                                                                 securities. The fund has
           Millions




                                                                                                                                                 grown each year as
                       $60                                                                                                                       contributions and earnings
                                                                                                                                                 exceed benefit payments
                                                                                                                                                 and administrative
                       $40                                                                                                                       expenses.

                       $20


                           $0
                                      2000                    2001                   2002               2003               2004       2005



                                                                                                27
                                                                  Investment Average Annual
                                                                        Rate of Return
                              6%




                                                                        5. 6
                                                                               5. 7
                                          5. 5




                                                                                      5. 5
                                   5. 4


                                                 5. 4




                                                                                             5. 4
                              5%




                                                        5. 1




                                                                                                    4. 9
                                                               4. 9




                                                                                                                                 4.7
                                                                                                                                       2000
                              4%                                                                                                       2001
             Rate of Return




                                                                                                                                       2002
                              3%                                                                                                       2003
                                                                                                                                       2004
                              2%                                                                                                       2005

                              1%


                              0%
                                    Supple me ntal Fund                          Trust Fund                D.C. Fe de ral Pe nsion
                                                                                                                   Fund*

 The Rate of Return is calculated by dividing interest earned from Government Account
 Series (GAS) securities by the average par value of investments in GAS securities. Interest
 earned from GAS securities includes the amortization of premiums and discounts.

* The Supplemental Fund and the Trust Fund were combined October 1, 2004, to create the
  D.C. Federal Pension Fund.

                                                                  Investment Average Annual
                                                                        Rate of Return
                        7%

                        6%                  6.1                   6.1           6.0                  5.9
                                                                                                              5.7          5.7
                        5%                                                                                                                    2000
    Rate of Return




                                                                                                                                              2001
                        4%
                                                                                                                                              2002
                                                                                                                                              2003
                        3%
                                                                                                                                              2004
                        2%                                                                                                                    2005

                        1%

                        0%
                                                                        Judicial Retirement Fund

 The Rate of Return is calculated by dividing interest earned from Government Account
 Series (GAS) securities by the average par value of investments in GAS securities. Interest
 earned from GAS securities includes the amortization of premiums and discounts.



                                                                                         28
C. Major Spending Categories

                                          Major Spending Categories
                                              from 2000 to 2005
                    $500



                    $400



                    $300                                                      Benefits and
         Millions




                                                                              Refunds Paid
                                                                              Administrative
                    $200                                                      Expenses


                    $100



                      $0
                           2000   2001     2002   2003        2004    2005

Administrative expenses include reimbursement of the District administrative expenses, salaries
and contract support.


                                          Major Spending Categories
                                         from 2000 to 2005 ($ millions)
 Fiscal Benefits &                 Administrative             Benefits and   Administrative
 Year Refunds Paid                   Expenses                 Refunds %       Expenses %
  2000                 $412                  $9                      98%          2%

  2001                 $423                 $12                      97%          3%

  2002                 $444                 $23                      95%          5%

  2003                 $455                 $19                      96%          4%

  2004                 $462                 $20                      96%          4%
  2005                 $464               $19.5                      96%          4%


Administrative expenses include reimbursement of the District administrative expenses, salaries
and contract support.




                                                         29
V. Limitation of the Financial Statements

The principal financial statements have been prepared to report the financial position and
results of operations of the Office of D.C. Pensions (the Office), pursuant to the
requirements of the 31 U.S.C. 3515(b).

While the statements have been prepared from the books and records of the Office in
accordance with accounting principles generally accepted in the U.S. of America for federal
entities and the formats prescribed by the Office of Management and Budget, the statements
are in addition to the financial reports used to monitor and control budgetary resources
which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the
U.S. Government, a sovereign entity.

VI. D.C. Retirement Protection Improvement Act of 2004 – Impact on Financial
    Statements

Pursuant to the District of Columbia Retirement Protection Improvement Act of 2004,
Pub. L. 108-489, Treasury established the District of Columbia Teachers, Police Officers,
and Firefighters Federal Pension Fund (D.C. Federal Pension Fund) and merged the assets of
the D.C. Federal Pension Liability Trust Fund (the Trust Fund) and Federal Supplemental
District of Columbia Pension Fund (the Supplemental Fund) into the new fund. The budget
authority of the Trust Fund and the Supplemental Fund was transferred to the D.C. Federal
Pension Fund. This transfer of budget authority has a significant impact on the presentation
of the Combined Statements of Budgetary Resources and the Consolidated Statements of
Financing which are found in Part 3, as noted in footnote (1)(a) to the financial statements.




                                             30
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                        Independent Auditors’ Report on Financial Statements


The Inspector General, U.S. Department of the Treasury, and
Director, Office of D.C. Pensions:

We have audited the accompanying consolidated balance sheets of the U.S. Department of the Treasury’s
Office of D.C. Pensions (ODCP) as of September 30, 2005 and 2004, and the related consolidated
statements of net cost, changes in net position and financing, and the combined statements of budgetary
resources, for the years then ended. These financial statements are the responsibility of ODCP’s
management. Our responsibility is to express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 01-02, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 01-02 require that we plan and perform the audits to obtain reasonable assurance about whether the
financial statements are free of material misstatement. An audit includes consideration of internal control
over financial reporting as a basis for designing audit procedures that are appropriate in the circumstances,
but not for the purpose of expressing an opinion on the effectiveness of ODCP’s internal control over
financial reporting. Accordingly, we express no such opinion. An audit also includes examining, on a test
basis, evidence supporting the amounts and disclosures in the financial statements. An audit also includes
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the U.S. Department of the Treasury’s Office of D.C. Pensions, as of
September 30, 2005 and 2004, and its net costs, changes in net position, budgetary resources, and
reconciliation of net costs to budgetary obligations, for the years then ended, in conformity with accounting
principles generally accepted in the United States of America.

The information in the Management Discussion and Analysis is not a required part of the financial
statements, but is supplementary information required by accounting principles generally accepted in the
United States of America or OMB Circular A-136, Financial Reporting Requirements, Part A, Form and
Content of the Performance and Accountability Report. We have applied certain limited procedures, which
consisted principally of inquiries of management regarding the methods of measurement and presentation
of this information. However, we did not audit this information and, accordingly, we express no opinion
on it.




                                                                         31
                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
Our audits were conducted for the purpose of forming an opinion on the financial statements taken as a
whole. The consolidating balance sheets, consolidating statements of net cost, consolidating statements of
changes in net position, combining statements of budgetary resources and consolidating statements of
financing are not a required part of the financial statements and are presented for purposes of additional
analysis. The Supplemental Information-Consolidating Intra-governmental Balances, Investments in GAS
Securities – Net by Fund, Investments in GAS Securities – Net by Fund and Maturity, Administrative
Expenses – by Fund, and Pension Expense – by Fund, are also presented for purposes of additional
analysis of the financial statements. This information has been subjected to the auditing procedures applied
in the audits of the financial statements and, in our opinion, are fairly stated, in all material respects, in
relation to the financial statements taken as a whole.

In accordance with Government Auditing Standards, we have also issued reports dated November 2, 2005,
on our consideration of ODCP’s internal control over financial reporting and our tests of its compliance
with certain provisions of laws, regulations and contracts and other matters. The purpose of those reports is
to describe the scope of our testing of internal control over financial reporting and compliance and the
results of that testing, and not to provide an opinion on the internal control over financial reporting or on
compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




November 2, 2005




                                                     32
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidated Balance Sheets
As of September 30, 2005 and September 30, 2004
(in thousands)

                                                                      2005              2004

Assets
    Entity Assets
        Intra-Governmental Assets
             Fund Balance with Treasury (Note 3)                 $         251     $         251
             Investments in GAS Securities, Net (Note 4)             3,869,891         3,907,511
             Interest Receivable from GAS Securities                    45,650            51,943
             Advances to Others                                             19                34
        Software-In-Development                                              -               891
        ADP Software, Net (Note 5)                                      17,679            17,732
        Equipment, Net (Note 6)                                            228               318
        Accounts Receivable                                             30,684            16,023
Total Assets                                                     $   3,964,402     $   3,994,703

Liabilities
    Liabilities Covered By Budgetary Resources
          Intra-Governmental
               Accounts Payable                                  $         300     $          54
               Accrued Payroll & Benefits                                   18                14
          Accounts Payable                                               4,058             4,809
          Accrued Pension Benefits Payable                              44,214            42,509
          Actuarial Pension Liability (Note 2 (j))                   3,659,529         3,947,017
          Accrued Payroll & Benefits                                       294               300
    Total Liabilities Covered By Budgetary Resources                 3,708,413         3,994,703

    Liabilities Not Covered By Budgetary Resources
         Actuarial Pension Liability (Note 9)                        4,851,716         4,420,274
Total Liabilities                                                    8,560,129         8,414,977

Net Position:
    Cumulative Results of Operations (defecit)                       (4,595,727)       (4,420,274)
Total Net Position                                                   (4,595,727)       (4,420,274)

Total Liabilities & Net Position                                 $   3,964,402     $   3,994,703


The accompanying notes are an integral part of these financial statements.




                                          33
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidated Statements of Net Cost
For the Years Ended September 30, 2005 and 2004
(in thousands)

                                                                   2005           2004

Program Costs
    Administrative Expenses (Note 7)                           $     19,525   $    20,367
    Pension Expense (Note 8)                                        610,024       522,492
Total Program Costs                                                 629,549       542,859

Less: Earned Revenues
     Interest Earned from GAS Securities                            169,364     179,624
     Employee Contributions                                             553         552
Net Cost of Operations                                         $    459,632   $ 362,683


The accompanying notes are an integral part of these financial statements.




                                            34
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidated Statements of Changes in Net Position
For the Years Ended September 30, 2005 and 2004
(in thousands)

                                                            2005             2004

Net Position - Beginning of Year                       $ (4,420,274)     $ (4,335,231)

Financing Sources (Other Than Exchange Revenue)
    Appropriations Used                                      284,000          277,500
    Transfers In/Out Without Reimbursement                         -                -
    Imputed Financing Sources                                    179              140
        Total Financing Sources                              284,179          277,640

Net Cost of Operations                                      (459,632)        (362,683)

Net Position - End of Year                             $ (4,595,727)     $ (4,420,274)


The accompanying notes are an integral part of these financial statements.




                                           35
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Combined Statements of Budgetary Resources
For the Years Ended September 30, 2005 and 2004
(in thousands)

                                                                 2005             2004

Budgetary Resources
  Budget Authority                                           $ (1,116,334)    $   728,371
  Unobligated Balance - Beginning of Year                       1,729,937       2,082,746
  Spending Authority from Offsetting Collections                   21,130          11,223
  Recoveries of Prior Year Obligations                              5,243               -
  Temporarily Unavailable Pursuant to Public Law                1,961,765        (321,904)
  Total Budgetary Resources (Note 1(a))                      $ 2,601,741      $ 2,500,436

Status of Budgetary Resources
   Obligations Incurred                                      $ 2,500,672      $   770,499
   Unobligated Balances Available                                101,069        1,729,937
   Total Status of Budgetary Resources (Note 1(a))           $ 2,601,741      $ 2,500,436

Relationship of Obligations to Outlays
   Obligated Balance, Net - Beginning of Year                $      55,207    $    68,178
   Obligations Incurred                                          2,500,672        770,499
   Recoveries of Prior Year Obligations                             (5,243)             -
   Obligated Balance, Net - End of Year                            (59,965)       (55,207)

   Outlays
    Disbursements                                              2,490,671          783,470
    Collections                                                  (21,130)         (11,223)
    Total Outlays                                              2,469,541          772,247
   Less: Offsetting Receipts                                     186,411          180,176
   Net Outlays (Note 1(a))                                   $ 2,283,130      $   592,071


The accompanying notes are an integral part of these financial statements.




                                                36
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidated Statements of Financing
For the Years Ended September 30, 2005 and 2004
(in thousands)

                                                                                      2005            2004

Budgetary Resources Obligated
   Obligations Incurred (Note 1(a))                                               $   2,500,672   $   770,499
   Less: Spending Authority from Offsetting Collections and Adjustments                  26,373        11,223
   Obligations Net of Offsetting Collections and Recoveries                           2,474,299       759,276
   Less: Offsetting Receipts                                                            186,411       180,176
   Net Obligations                                                                    2,287,888       579,100
   Transfers In/Out Without Reimbursement                                                     -             -
   Imputed Financing from Costs Absorbed by Others                                          179           140
   Total Resources Used to Finance Activities                                         2,288,067       579,240
Resources Used to Finance Items Not Part of the Net Cost of Operations
   Change in Budgetary Resources Obligated for Goods, Services and
    Benefits Ordered but not yet Provided                                                3,544           (742)
   Resources That Fund Expenses Recognized in Prior Periods                             14,658          7,504
   Resources that Finance the Acquisition of Assets or Liquidation of Liabilities        4,678            142
   Other Resources or Adjustments to Net Obligated Resources that do not
    Affect Net Cost of Operations (Note 1(a))                                         1,971,716       277,500
Total Resources used to Finance Items not part of the Net Cost of Operations          1,994,596       284,404
Total Resources Used to Finance Net Cost of Operations                                  293,471       294,836
Components Requiring or Generating Resources in Future Periods
   Increase in Exchange Revenue Receivable from the Public                                  (3)             -
   Future Funded Expenses                                                              143,955         62,790
Total Components of Net Cost of Operations that will Require or Generate
 Resources in Future Periods (Note 9)                                                  143,952         62,790
Components not Requiring or Generating Resources
   Depreciation and Amortization                                                         5,269          5,057
   Other                                                                                16,940              -
Total Components of Net Cost Operations that will not Require or Generate               22,209          5,057
 Resources in Future Periods
Total Components of Net Cost Operations that will not Require or Generate
 Resources in Current Periods                                                          166,161         67,847
Net Cost of Operations                                                            $    459,632    $   362,683


The accompanying notes are an integral part of these financial statements.




                                                       37
Office of D.C. Pensions
Office of the Assistant Secretary for Management
and Chief Financial Officer
Departmental Offices, U.S. Department of Treasury

                               Notes to Financial Statements

                                    September 30, 2005


(1) Reporting Entity
Under provisions in Title XI of the Balanced Budget Act of 1997, as amended (the Act), the
Secretary of the Treasury (the Secretary) assumed certain responsibilities for a specific
population of annuitants under the following District of Columbia (District) retirement
plans: the Police Officers’ and Firefighters’ Retirement Plan, the Teachers’ Retirement Plan
and the Judges’ Retirement Plan. Specifically, the Secretary is responsible for administering
the retirement benefits earned by District teachers, police officers and firefighters based
upon service accrued prior to July 1, 1997, and retirement benefits earned by District judges,
regardless of when service accrued.

The Secretary’s responsibilities include: (1) making accurate and timely benefit payments;
(2) investing fund assets; and (3) funding pension benefits. To carry out these
responsibilities, Treasury’s Office of D.C. Pensions (the Office) engages in a wide range of
legal, policy and operational activities in the areas of benefits administration, information
technology, financial management and administration. The Office coordinates with many
District entities and stakeholders to administer its responsibilities.

The Office reports to the Assistant Secretary for Management and Chief Financial Officer
(ASM/CFO). The ASM/CFO reports through the Deputy Secretary to the Secretary of the
Treasury.

     (a)   District of Columbia Teachers, Police Officers, and Firefighters Federal
           Pension Fund (FY 2005)
           Pursuant to the District of Columbia Retirement Protection Improvement Act of
           2004, Pub. L. 108-489, Treasury established the District of Columbia Teachers,
           Police Officers, and Firefighters Federal Pension Fund (the D.C. Federal Pension
           Fund – 20X5511). The assets and liabilities of the District of Columbia Federal
           Pension Liability Trust Fund (the Trust Fund - 20X8230) and the Federal
           Supplemental District of Columbia Pension Fund (the Supplemental Fund –
           20X5500) were transferred to the D.C. Federal Pension Fund. The D.C. Federal
           Pension Fund is used for the accumulation of funds to finance obligations of the
           Federal Government for benefits and necessary administrative expenses for the
           Police Officers’ and Firefighters’, and Teachers’ Retirement Plans under the
           provisions of the Act. The D.C. Federal Pension Fund consists of the following:




                                              38
•    Amounts deposited from the proceeds of assets transferred from the Trust
     Fund and the Supplemental Fund
•    Amounts deposited from the General Fund of the Treasury
•    Income earned on the investments held in the D.C. Federal Pension Fund
•    Reimbursement and receivables from the D.C. Government for the
     District’s estimated share of benefits paid from the D.C. Federal Pension
     Fund for FY 2005
The portion of the D.C. Federal Pension Fund that is not needed to meet the level
of current benefit payments, refunds, and administrative expenses is invested in
non-marketable Government Account Series (GAS) securities issued by the
Treasury’s Bureau of Public Debt (BPD). Investments are made in securities
with maturities suitable to the needs of the D.C. Federal Pension Fund.
By the end of each fiscal year, the Act requires the Secretary to pay into the
D.C. Federal Pension Fund (from the General Fund of the Treasury) an annual
amortization amount. The annual amortization amount, as determined by an
enrolled actuary, is the amount necessary to amortize the original unfunded
liabilities of the retirement programs assumed by the Federal Government over
30 years, the net experience gains or losses over 10 years, and any other changes
in actuarial liability over 20 years. The amount paid into the D.C. Federal
Pension Fund during FY 2005 was $277 million.

As a result of the 2004 legislation, the budget authority of the Trust Fund and the
Supplemental Fund was transferred to the D.C. Federal Pension Fund. This
transfer of budget authority has a significant impact on the presentation of the
Combined Statements of Budgetary Resources and the Consolidated Statements
of Financing.

Budget authority of $1,961,764,884 in the Supplemental Fund was moved to the
D.C. Federal Pension Fund through a non-expenditure transfer. The transfer
impacts two line items on the Combined Statements of Budgetary Resources.
Prior to the legislation, the Supplemental Fund was prohibited by public law
from incurring obligations until the Trust Fund was depleted. The legislation
resulted in a reclassification of the restriction on the availability of resources
from Temporarily Unavailable Pursuant to Public Law to Budget Authority, but
the receipts are unavailable for obligation upon collection which reduces Budget
Authority.

Budget authority of $1,687,715,405.03 in the Trust Fund was moved to the
D.C. Federal Pension Fund through an expenditure transfer. Because the “trust”
and “special” funds are classified differently, the expenditure transfer has a
significant impact on both the Combined Statements of Budgetary Resources and
the Consolidated Statements of Financing. The transfer is recognized as a
disbursement and accounted for as Obligations Incurred and Disbursements on



                                  39
      the Combined Statements of Budgetary Resources. This disbursement of
      authority reduces Unobligated Balances Available and increases Net Outlays on
      the Combined Statements of Budgetary Resources. This disbursement of
      authority also has an impact on Obligations Incurred and Other Resources or
      Adjustments to Net Obligated Resources that do not affect Net Cost of
      Operations on the Consolidated Statements of Financing.

(b)   District of Columbia Judicial Retirement and Survivors Annuity Fund
      (FY 2005 and 2004)
      Pursuant to the Act, Treasury established the District of Columbia Judicial
      Retirement and Survivors Annuity Fund (the Judicial Retirement Fund –
      20X8212).
      The Judicial Retirement Fund is used for the accumulation of funds to finance
      obligations of the Federal Government for benefits and necessary administrative
      expenses of the Judges’ Plan under the provisions of the Act.
      The Judicial Retirement Fund consists of the following:

      •    Amounts deposited from the proceeds of assets transferred to Treasury
           from the District of Columbia Retirement Board (DCRB) pursuant to the
           Act

      •    Amounts deposited from the General Fund of the Treasury

      •    Income earned on the investments held in the Judicial Retirement Fund

      •    Employee contributions to the Judicial Retirement Fund
      The portion of the Fund that is not needed to meet the level of current benefit
      payments, refunds and administrative expenses is invested in GAS securities.
      Investments are made in securities with maturities suitable to the needs of the
      Judicial Retirement Fund.
      By the end of each fiscal year, the Act requires the Secretary to pay into the
      Judicial Retirement Fund (from the General Fund of the Treasury) an amount
      equal to the normal cost for the year, an annual amortization amount and the
      covered administrative expenses for the year. The annual amortization amount,
      as determined by an enrolled actuary, is the amount necessary to amortize the
      original unfunded liability of the retirement program assumed by the Federal
      government over 30 years, the net experience gains or losses over 10 years, and
      any other changes in actuarial liability over 20 years. The annual payment to the
      Judicial Retirement Fund also includes an amount necessary to fund the normal
      cost of the retirement program not covered by employee contributions. The
      amounts paid into the Judicial Retirement Fund during FY 2005 and 2004 were
      $7 million and $7.5 million, respectively.




                                        40
(c)   District of Columbia Federal Pension Liability Trust Fund (FY 2004)
      Pursuant to the Act, Treasury established the District of Columbia Federal
      Pension Liability Trust Fund (the Trust Fund – 20X8230). The Trust Fund was
      used for the accumulation of funds to finance obligations of the Federal
      Government for benefits and necessary administrative expenses for the Police
      Officers’ and Firefighters’, and Teachers’ Retirement Plans under the provisions
      of the Act. The Trust Fund consisted of the following:

      •    Amounts deposited from the proceeds of assets transferred to Treasury
           from the DCRB pursuant to the Act

      •    Income earned on the investments held in the Trust Fund

      •    Reimbursement and receivables from the D.C. Government for the
           District’s estimated share of benefits paid from the Trust Fund for
           FY 1998 - FY 2004
      The portion of the Trust Fund that was not needed to meet the level of current
      benefit payments, refunds, and administrative expenses was invested in non-
      marketable Government Account Series (GAS) securities issued by the
      Treasury’s Bureau of Public Debt (BPD). Investments were made in securities
      with maturities suitable to the needs of the Trust Fund.
      The District of Columbia Retirement Protection Improvement Act of 2004,
      signed by the President on December 23, 2004, terminated the Trust Fund and
      the Supplemental Fund, and transferred the assets to a newly created fund, the
      D.C. Federal Pension Fund, effective, October 1, 2004.

(d)   Federal Supplemental District of Columbia Pension Fund (FY 2004)
      Pursuant to the Act, Treasury established the Federal Supplemental District of
      Columbia Pension Fund (the Supplemental Fund – 20X5500). The Supplemental
      Fund was used for the accumulation of funds to finance obligations of the
      Federal Government for benefits and necessary administrative expenses for the
      Police Officers’ and Firefighters’, and Teachers’ Retirement Plans. Funds held
      in the Supplemental Fund were not available for use until such time as the funds
      held in the Trust Fund had been depleted. No later than 18 months before the
      projected depletion of the available assets of the Trust Fund, the Secretary was to
      determine the manner in which the Supplemental Fund would be used to fund
      future benefits and administrative expenses.
      The Supplemental Fund consisted of the following:

      •    Amounts deposited from the General Fund of the Treasury

      •    Income earned on the investments held in the Supplemental Fund




                                        41
            The funds held in the Supplemental Fund were invested in GAS securities with
            maturities suitable to the needs of the Supplemental Fund.
            By the end of each applicable fiscal year, the Act required the Secretary to pay
            into the Supplemental Fund (from the General Fund of the Treasury) an amount
            equal to the annual amortization amount and the covered administrative expenses
            for the year. The annual amortization amount, as determined by an enrolled
            actuary, was the amount necessary to amortize in equal annual installments the
            original unfunded liability of the retirement programs assumed by the Federal
            Government over 30 years, the net experience gains or losses over 10 years, and
            any other changes in actuarial liability over 20 years. The amount paid into the
            Supplemental Fund during FY 2004 was $270 million.
            The District of Columbia Retirement Protection Improvement Act of 2004,
            signed by the President on December 23, 2004, terminated the Trust Fund and
            the Supplemental Fund, and transferred the assets to a newly created fund, the
            D.C. Federal Pension Fund, effective, October 1, 2004.
(2)   Summary of Significant Accounting Policies
      (a)   Basis of Accounting and Presentation
            The Office’s financial statements consist of the Consolidated Balance Sheets, the
            Consolidated Statements of Net Cost and Changes in Net Position, the Combined
            Statements of Budgetary Resources and the Consolidated Statements of
            Financing, all of which are prescribed by Office of Management and Budget
            (OMB) Bulletins. The financial statements have been prepared from the
            accounting records of the Office in conformity with accounting principles
            generally accepted in the United States of America. Accounting principles
            generally accepted in the United States of America for federal entities are
            prescribed by the Federal Accounting Standards Advisory Board (FASAB),
            which is designated the official accounting standards setting body of the Federal
            Government by the American Institute of Certified Public Accountants. The
            statements are different from the financial reports, also prepared by the Office,
            pursuant to OMB directives that are used to monitor and control the Office’s use
            of budgetary resources.
      (b)   Fund Balance with Treasury
            Fund balance with Treasury represents appropriated funds remaining as of fiscal
            year-end from which the Office is authorized to make expenditures and pay
            liabilities resulting from operational activity, except as restricted by law.
      (c)   Investments
            Pursuant to the Act and Section 130 of Division A of Pub. L. 105-277 (1998), the
            Secretary invests the portions of the D.C. Federal Pension Fund and the Judicial
            Retirement Fund that are not necessary to meet current obligations, in market-
            based (MK) GAS securities — non-marketable Treasury securities that mirror



                                             42
      the prices of marketable securities with similar terms, issued and redeemed by
      BPD. Amounts needed to meet current obligations are invested in overnight non-
      marketable par value GAS securities, redeemed at face value plus accrued
      interest.
      The Office follows Treasury investment policy guidelines and determines
      whether the investments should be made in MK bills, MK notes, or MK bonds.
      The maturities on investments range from less than one year to approximately
      7 years. If amounts held in cash, overnight securities and maturing securities are
      inadequate to meet required outlays, investments would be selected for
      redemption based on a review of the advantages of each of the alternatives and
      an assessment of the appropriateness of the securities in the portfolio under
      current investment policy. Investments are valued at cost, adjusted for
      unamortized premiums and discounts, if applicable. The premiums and
      discounts are recognized as adjustments to interest income, utilizing the effective
      interest method.
(d)   Advances and Prepayments
      The carrying amount of advances and prepayments to the Department of the
      Treasury’s Working Capital Fund approximate fair value as they represent the
      amounts expected to be paid.
(e)   Software-In-Development
      Software-in-development consists of independent contractor costs incurred in
      FY 2004 to develop Release 3 of a pension/payroll system to support the Police
      Officers’ and Firefighters’, and Teachers’ Retirement Plans.
(f)   ADP Software – Net
      ADP software – net represents the pension benefit and payroll software
      purchased and independent contractor costs incurred in FY 2000 – FY 2005 to
      develop a pension/payroll system to meet Treasury’s and D.C.’s needs (net of
      accumulated amortization). Components of this software that calculate benefit
      payments for the judges and a portion of the teachers, police officers and
      firefighters were placed in service during FY 2003. An additional component of
      the pension/payroll system for the remaining population of the teachers, police
      officers and firefighters was placed in service during FY 2005. Internal use
      software is recorded at cost and capitalized in accordance with the following
      thresholds:

      •    Capitalize software acquisitions that exceed $50,000

      •    Capitalize bulk purchases (a single purchase of like items in the same lot
           with a unit cost greater than $5,000 and less than $50,000) that exceed
           $500,000




                                        43
      •    Capitalize aggregate purchases (multiple purchases of items directly related
           to a specific project and unit cost is less than $50,000) that exceed
           $500,000
      Software is amortized using the straight-line method over an estimated useful life
      of five years, with six months amortization taken in the first and last year.
(g)   Equipment - Net
      Equipment – net represents computer hardware purchases (net of accumulated
      depreciation) placed in service and used to run ADP Software and operation of
      the pension/payroll system. Equipment is recorded at cost and capitalized in
      accordance with the following thresholds:

      •    Capitalize equipment acquisitions that exceed $50,000

      •    Capitalize bulk purchases (a single purchase of like items in the same lot
           with a unit cost greater than $5,000 and less than $50,000) that exceed
           $500,000

      •    Capitalize aggregate purchases (multiple purchases of items directly related
           to a specific project and unit cost is less than $50,000) that exceed
           $500,000
      Equipment is depreciated using the straight-line method over an estimated useful
      life of five years, with six months depreciation taken in the first and last year.
(h)   Accounts Receivable
      Accounts receivable consist of: (a) amounts due from the D.C. Government for
      the District’s estimated share of benefits paid by the Office during FY 2005 and
      2004 respectively, (b) amounts due from the D.C. Government for the District’s
      estimated share of refunds paid by the Office from FY 1998 to FY 2002,
      (c) employee retirement contributions withheld from judges’ salaries not yet
      transferred from the General Services Administration to the Judicial Retirement
      Fund before the end of each fiscal year, and (d) amounts due from annuitants and
      survivors as the result of benefit overpayments.

(i)   Accrued Pension Benefits Payable
      Accrued pension benefits payable pertains, for the most part, to retirement
      benefits to which the recipients became entitled during the reporting period, but
      which, by law, are paid on the first business day of the subsequent period.
      Included in this accrual are amounts for refund claims for which processing was
      not completed during the reporting period, but will be paid in the subsequent
      period.




                                        44
(j)   Actuarial Pension Liability
      The actuarial cost method used to determine costs for the Police Officers’ and
      Firefighters’ Retirement Plan, Teachers’ Retirement Plan, and Judges’
      Retirement Plan is the Aggregate Entry Age Normal Cost Method. Under this
      funding method, the normal cost is a level percent of covered salary, which,
      along with the member contributions (under the Judges’ Plan only), will pay for
      projected benefits at retirement for the active plan participants. The level percent
      developed is called the normal cost rate and the product of that rate and payroll is
      the normal cost.
      The actuarial accrued liability is that portion of the present value of projected
      benefits that will not be paid by future normal costs or member contributions.
      The difference between this liability and the funds accumulated at the same date
      is referred to as the unfunded actuarial accrued liability. In the FY 2004 financial
      statements, the portion of Actuarial Pension Liability covered by budgetary
      resources was calculated using net plan assets that were available to fund the
      actuarial accrued liability. In FY 2005, the calculation was modified to
      determine the covered portion based on unobligated budgetary resources.

      The actuarial accrued liability is based upon assumptions made by Treasury. The
      assumptions used to calculate the accrued liability as of October 1, 2005, were an
      annual rate of investment return of 6% based on the securities held in the Judicial
      Fund, an annual rate of investment of 4.8% in FY 2006 based on securities held
      in the D.C. Federal Pension Fund, gradually increasing to 6% by FY 2011; an
      annual inflation and cost-of-living adjustment of 3%; and salary increases at an
      annual rate of 3.5% for judges, 5.5% for teachers, and 6.5% for police officers
      and firefighters. In FY 2004, the assumptions used were an annual rate of
      investment return of 6% based on the securities held; an annual inflation and
      cost-of-living adjustment of 3%; and salary increases at an annual rate of
      3.5% for judges, 5.5% for teachers, and 6.5% for police officers and
      firefighters.
(k)   Appropriations Received and Used
      Treasury is required to make annual payments from the General Fund of the
      Treasury to the Judicial Retirement Fund and the D.C. Federal Pension Fund to
      amortize the original unfunded liabilities assumed by the Federal Government
      over a period of time and to fund the normal cost of the Judicial Retirement
      Fund. The appropriations are received into the Office’s appropriation funds and
      are paid out to the Judicial Retirement Fund and the D.C. Federal Pension Fund
      to be invested in non-marketable Treasury securities. In accordance with
      Statement of Federal Financial Accounting Standards (SFFAS) No. 7, the
      payment from the Office’s appropriation funds results in an appropriation used,
      as reported in the accompanying Consolidated Statements of Changes in Net
      Position. Appropriations received and used for the years ended
      September 30, 2005 and 2004 were $284.0 million and $277.5 million,
      respectively.


                                         45
(l)   Employee Retirement Plans
      The D.C. Federal Pension Fund and Judicial Retirement Fund pay salaries and
      benefits of Treasury employees who work in the Office as reasonable and
      necessary expenses incurred in carrying out the Secretary’s responsibilities under
      the Act. These salaries and benefits are split 90% and 10% between the
      D.C. Federal Pension Fund and the Judicial Retirement Fund, respectively.
      The Office’s employees participate in the Civil Service Retirement System
      (CSRS) or the Federal Employees Retirement System (FERS). FERS was
      established by Pub. L. 99-335. Pursuant to this law, FERS and Social Security
      automatically cover most employees hired after December 31, 1983. Employees
      hired before January 1, 1984, elected to join either FERS or remain in CSRS.

      Most employees are eligible to contribute to the Thrift Savings Plan (TSP). For
      employees participating in FERS, TSP accounts are automatically established
      and the D.C. Federal Pension Fund and the Judicial Retirement Fund make
      mandatory contributions of one percent of the Treasury employees’ base pay to
      the accounts. In addition, the Funds make matching contributions, ranging from
      1% to 4% of base pay, for FERS eligible employees who contribute to their TSP
      accounts. Pursuant to law, mandatory and matching contributions are not made
      to the TSP accounts established for CSRS employees.
      FERS employees and certain CSRS reinstatement employees participate in the
      Social Security program. The D.C. Federal Pension Fund and Judicial
      Retirement Fund remit the employer’s share of the required contributions for
      eligible employees.
      The D.C. Federal Pension Fund and Judicial Retirement Fund do not report
      information pertaining to the CSRS and FERS retirement plans covering
      Treasury employees. The U.S. Office of Personnel Management is responsible
      for reporting amounts such as plan assets, accumulated plan benefits, and related
      unfunded liabilities, if any.
(m) President’s Budget
      The FY 2007 Budget of the United States (also known as the President's Budget
      for FY 2007), with actual numbers for FY 2005, was not published at the time
      that these financial statements were issued. The President's Budget for FY 2007,
      which includes the Office’s budget within the Other Independent Agencies’
      budget appendix, is expected to be published in January or February 2006. It
      will be available from the United States Government Printing Office. The
      FY 2004 Statement of Budgetary Resources (SBR) was reconciled to the
      Program and Financing (P & F) Schedules within the President’s Budget for
      FY 2006 and there were no differences for budgetary resources and status of
      budgetary resources. The reconciliation of net outlays did result in a difference.
      The reason for this difference is that the SBR includes offsetting receipts in the
      net outlay calculation, whereas the President’s Budget does not include offsetting
      receipts in the net outlay calculation.


                                        46
            Earnings on investments in U.S. securities, federal (as reported in the annual
            President’s Budget) consists of interest collected from GAS securities less
            premiums and interest purchased. Interest Earned from GAS Securities (as
            reported in the financial statements) consists of interest earned from GAS
            securities and the amortization of premiums and discounts.
(3) Fund Balance with Treasury
      Fund balance with Treasury and the status of Fund balance with Treasury as of
      September 30, 2005 and 2004, consisted of the following (in thousands):

                                                                          2005            2004
      Fund balances:
        Trust funds                                               $               25         251
        Special funds *                                                          226         —
      Total fund balance with Treasury                            $              251         251
      * OMB Circular A-11 defines special funds as a Federal fund account for receipts
        earmarked for specific purposes and the expenditure of these receipts.

                                                                           2005            2004
      Status of fund balance with Treasury
        Unobligated balance
           unavailable                                             $              —                —
        Obligated balance not yet disbursed                                       251             251

        Total                                                      $              251             251


(4)   Investments in GAS Securities - Net
      Investments in GAS securities – net as of September 30, 2005 and 2004, consisted of
      the following (in thousands):

                                                                          2005

                                                            Unamortized
                                                             Premium,       Investments   Market
                                                 Cost           Net             Net       Value
      Intragovernmental Securities
         Non-marketable par value       $        182,384             —         182,384       182,384
         Non-marketable market-based           3,551,740        135,767      3,687,507     3,684,091

                   Total                $      3,734,124        135,767      3,869,891     3,866,475




                                                   47
                                                                  2004
                                                      Unamortized
                                                       Premium,      Investments        Market
                                        Cost              Net            Net            Value
Intragovernmental Securities
  Non-marketable par value        $     193,675             —              193,675       193,675
  Non-marketable market-based         3,567,861         145,975          3,713,836     3,842,449
            Total                 $   3,761,536         145,975          3,907,511     4,036,124


The amortization method utilized by the Office is the effective interest method. The
market value for notes and bonds is calculated using rates for September 30, 2005 and
2004, as published in the Treasury Quote Sheets prepared by Treasury’s Office of
Market Finance. Included in this figure are a net unrealized loss of $3.4 million and a
net unrealized gain of $128.6 million as of September 30, 2005 and 2004, respectively.

The amortized cost of non-marketable market-based GAS securities as of
September 30, 2005 and 2004, by maturity date, are as follows (in thousands):
                                                          2005                  2004
Less than or equal to 1 year                      $       499,370               534,765
More than 1 year and less than
  or equal to 5 years                                    2,721,258            2,581,759
More than 5 years and less than
  or equal to 10 years                                    466,879               597,312
            Total                                 $      3,687,507            3,713,836


(5)   ADP Software – Net
The components of ADP software – net as of September 30, 2005 and 2004, are as
follows (in thousands):
                                                          2005                  2004
ADP software                                      $        30,902                25,332
Accumulated depreciation                                  (13,223)               (7,600)
ADP software – net                                $        17,679                17,732




                                         48
(6)   Equipment - Net
      The components of equipment – net as of September 30, 2005 and 2004, are as follows
      (in thousands):
                                                                2005             2004
      ADP hardware                                      $          500               500
      Accumulated depreciation                                    (272)             (182)
      Equipment – net                                   $          228                  318


(7)    Administrative Expenses

      Administrative expenses for the years ended September 30, 2005 and 2004, are as
      follows (in thousands):
                                                                2005             2004
      Intragovernmental expenses
         Salaries and related benefits                      $       687              501
         Contractual services                                     2,249            2,845
         Rent                                                       368              697
         Other                                                       14                7
              Total intragovernmental expenses              $     3,318            4,050


      Public expenses
        Salaries and related benefits                       $     2,514            2,041
        Contractual services                                      7,912            8,977
        Rent                                                          3                4
        Noncapitalized equipment/software                         5,752            5,283
        Other                                                        26               12
              Total public expenses                         $    16,207           16,317

                  Total administrative expenses             $    19,525           20,367


      Included in the above expenses are amounts incurred by the D.C. Federal Pension
      Fund and Judicial Retirement Fund for intragovernmental activity totaling
      $2,896 thousand and $422 thousand, respectively, for 2005, and $3,586 thousand and
      $464 thousand, respectively, for 2004.




                                                 49
(8)   Pension Expense
      Pension expense for the plan years ended September 30, 2005, and 2004, includes the
      following components (in thousands):
                                                                    2005             2004
      Normal cost                                            $        4,100            4,100
      Actuarial (gain)/loss during the period                       114,789           37,203
      Interest on pension liability during the
         period                                                     490,600          486,600
      Collective bargaining agreement                                   282               —
      Longevity pay adjustment                                          253           (5,411)
                    Total pension expense                    $      610,024          522,492

      Federal pension benefits paid during the plan years were $457.1 million and
      $6.7 million from the D.C. Federal Pension Fund and Judicial Retirement Fund,
      respectively, for 2005, and $456 million and $6 million, respectively, for 2004. For
      2005, approximately $1.8 million represents contribution refunds to plan participants
      of the D.C. Federal Pension Fund. For 2004, approximately $5.4 million represents
      contribution refunds to plan participants of the D.C. Federal Pension Fund. For
      FY 2005, the actuarial loss of $114.8 million was primarily due to the lowering of the
      actuarial investment return assumption in the D.C. Federal Pension Fund for
      FY 2006 – FY 2010. For FY 2004, the actuarial loss of $37.2 million was primarily
      due to changes in demographic assumptions (e.g., rates of retirement, rates of
      maturity, etc.,) based upon the FY 2004 experience study of the funds.

      Longevity Pay Adjustment for Police Officers
      As required by District law enacted in 1972, active D.C. police officers receive
      increases in salary reflecting longevity pay adjustments based on length of
      departmental service. Until recently, District law specifically excluded the longevity
      pay adjustment in calculating retirement benefits for annuitants. District and federal
      statutes were enacted in December 1999 and December 2000, respectively, requiring
      the calculation of retirement benefits to include longevity pay in the salary at the time
      of retirement. The federal statute applies to Federal Benefit Payments made after
      December 15, 2000, to annuitants who retired on or after August 29, 1972. Therefore,
      implementation of the federal statute required recalculation of initial benefits going
      back 30 years in some cases. Resolution of issues involving the calculation
      methodology and eligibility for the longevity retirement pay adjustment delayed
      implementation of the District and federal statutes. Implementation of the statutes is
      now complete and longevity is included in benefit calculations as individuals retire.
      Collective Bargaining Agreement (Police Officers)
      On June 7, 2005, the D.C. Council approved annual pay increases retroactive to
      October 1, 2003, for active police officers as contained in a collective bargaining




                                                 50
      agreement. As a result, the annuities for approximately 130 police officers who retired
      after October 1, 2003, had to be recalculated to account for changes in the retirees’
      final average earnings. In addition, retroactive benefits were also calculated. The
      Office completed the calculation effort in October 2005.
(9)   Statement of Financing Disclosure
      Liabilities Not Covered by Budgetary Resources of $4,852 million and $4,420 million
      as of September 30, 2005 and 2004, represents the portion of the actuarial liability that
      will require resources in a future period (See Note 2j, Actuarial Pension Liability).
      The amounts reported on the Statement of Financing, as Future Funded Expenses of
      $144 million and $63 million for the years ended September 30, 2005 and 2004,
      represent the change in the actuarial liability.
(10) Plan Administration and Description
      (a)   Police Officers’ and Firefighters’ Retirement Plan
            Eligibility
            A participant becomes a member when he or she starts work as a police officer or
            firefighter in the District of Columbia. Police cadets are not eligible to join the
            Plan. A participant’s contribution equals 7% (or 8% for employees hired on or
            after November 10, 1996) of basic pay. Employee contributions are made
            according to the plan adopted by the District of Columbia on
            September 18, 1998. However, the D.C. Federal Pension Fund does not receive
            any employee or employer contributions because pension liability for all service
            accruing on or after July 1, 1997, is the exclusive responsibility of the District of
            Columbia.

            Members (not survivors) who retired prior to February 15, 1980, receive the
            same percentage increase in annuities as active employees’ salary increases.
            Members who retired on or after February 15, 1980 and all survivors receive an
            increase each March based on the annual change in the Consumer Price Index for
            All Urban Consumers (all items – U.S. City Average) from December to
            December.
            Members Hired Before February 15, 1980
            Members are eligible for optional retirement with full benefits at any age with
            20 years of departmental service. The annual basic retirement benefit equals
            2.5% of average pay (basic pay for the highest 12 consecutive months) times
            years of departmental service up to 20 years, plus 3% of average pay times years
            of departmental service over 20 years, plus 2.5% of average pay times credited
            years of service, subject to a maximum benefit of 80% of final pay. Members
            terminated after at least five years of police or fire service are entitled to a
            deferred benefit beginning at age 55 if they do not receive a refund of
            contributions.




                                               51
Members with service-related disabilities receive an annuity equal to 2.5% of
average pay times total years of service, subject to a minimum benefit of
66.67% of average pay and subject to a maximum benefit of 70% of average pay.
Other members with non-service related disabilities with more than five years of
departmental service receive an annuity equal to 2% of average pay times total
years of service, subject to a minimum benefit of 40% of average pay and subject
to a maximum benefit of 70% of average pay.
Members Hired on or After February 15, 1980, and Before November 10, 1996
Members are eligible for optional retirement with full benefits at age 50 with at
least 25 years of departmental service. The annual basic retirement benefit
equals 2.5% of average pay (basic pay for the highest 36 consecutive months)
times years of departmental service up to 25 years, plus 3% of average pay times
years of departmental service over 25 years, plus 2.5% of average pay times
credited years of service, subject to a maximum benefit of 80% of final pay.
Members terminated after at least five years of police or fire service are entitled
to a deferred pension beginning at age 55 if they do not receive a refund of
contributions.

Members with service related disabilities receive 70% of base pay times
percentage of disability, subject to a minimum benefit of 40% of base pay.

Other members with non-service related disabilities with more than five years of
departmental service receive 70% of base pay times percentage of disability,
subject to a minimum benefit of 30% of base pay.

Members Hired on or After November 10, 1996
Members are eligible for retirement with 25 years of departmental service. The
annual basic retirement benefit equals 2.5% of average pay (basic pay for the
highest 36 consecutive months) times years of departmental and credited service,
subject to a maximum benefit of 80% of basic pay.
Members with service related disabilities receive 70% of base pay times
percentage of disability, subject to a minimum benefit of 40% of base pay.
Other members with non-service related disabilities with more than five years of
departmental service receive 70% of base pay times percentage of disability,
subject to a minimum benefit of 30% of base pay.
Participant Data
For the September 30, 2005, and 2004, actuarial valuations, the participants, as of
June 30, 2005 and 2004, eligible to receive a Federal benefit are as follows:




                                  52
                                                            2005                2004
    Active members                                            3,386               3,509
    Retirees and beneficiaries                                7,664               7,673
    Vested terminated members                                   —                    —
                  Total                                      11,050              11,182


    Application of Statutory Military Service Provision (Police Officers and
    Firefighters)

    By District law, determination of retirement benefits for District police officers
    and firefighters may include credit for military service performed after 1956.
    However, if the retiree is also eligible for Social Security retirement or disability
    benefits based upon his or her wages and self-employment income, the
    retirement benefit from the District Retirement Plan must be recalculated to
    remove the portion of the benefit derived from the military service.
    Recalculation must occur when the retiree reaches the age to begin receiving full
    Social Security benefits (65+, depending on date of birth). Public Law 108-133,
    enacted on November 22, 2003, permits D.C. Police Officers’ and Firefighters’
    Retirement Plan members to purchase eligible post-56 military service for credit
    in calculating their retirement annuities.

(b) Teachers’ Retirement Plan
    Eligibility
    Permanent, temporary, and probationary teachers and certain other employees of
    the D.C. Public Schools become members automatically on their date of
    employment. The basic retirement contribution equals 7% (or 8% for teachers
    hired on or after November 16, 1996) of a participant’s annual pay minus any
    pay received for summer school. Employee contributions are made according to
    the plan adopted by the District of Columbia on September 18, 1998. However,
    the D.C. Federal Pension Fund does not receive any employee or employer
    contributions because pension liability for all service accruing on or after
    July 1, 1997, is the exclusive responsibility of the District of Columbia.
    Voluntary retirement is available for teachers with at least five years of school
    service who have attained age 62; age 60 with 20 years of total service, including
    at least five years of school service; age 55 with 30 years of total service,
    including at least five years of school service; and at any age with 30 years of
    total service, including at least five years of school service, if hired by the school
    system on or after November 16, 1996.
    The annuity is equal to 1.5% of three-year average pay times years of service up
    to five years, plus 1.75% of average pay times years of service between five and
    ten years, plus 2% of average pay times years of service over ten years. For



                                       53
      participants hired on or after November 16, 1996, the annuity is equal to 2% of
      three-year average pay times all years of service.
      Participants who have five years of school service and who have a physical or
      mental disability that prevents them from performing their job, may be eligible
      for disability retirement. Disability benefits are based on the voluntary
      retirement benefit subject to a minimum of the lesser of 40% of average pay or
      the benefit the member would receive using average pay at the time of disability
      with service projected to age 60.
      Employees who are involuntarily separated other than for misconduct or
      delinquency and who have at least five years of school service, may be eligible
      for retirement at any age. The retirement benefit is calculated in the same
      manner as voluntary retirement, except that the involuntary retirement benefit is
      reduced 1/6% per month (2% per year) for each full month the teacher is under
      age 55 at the time of separation from the school system.
      All annuitants receive an annuity increase effective each March 1st based on the
      annual change in the Consumer Price Index for Urban Wage Earners and Clerical
      Workers (all items – U.S. City Average) from December to December.
      Participant Data
      For the September 30, 2005, and 2004, actuarial valuations, the participants, as of
      June 30, 2005 and 2004, eligible to receive a Federal benefit are as follows:

                                                            2005              2004
      Active members                                           2,840             3,186
      Retirees and beneficiaries                               5,719             5,497
      Vested terminated members                                   25                25
                   Total                                       8,584             8,708

(c)   Judges’ Retirement Plan
      Eligibility
      A participant becomes a member of the Plan when he or she becomes a judge of
      the D.C. Court of Appeals or the Superior Court, or when he or she becomes the
      Executive Officer of the District Court System. A participant’s contribution
      equals 3.5% of annual salary plus an optional 3.5% of annual salary for
      survivors’ benefits. The Judicial Retirement Fund receives the employee
      contributions.
      Members are eligible for normal retirement with full benefits at age 50 with at
      least 20 years of judicial service, at age 60 with at least 10 years of judicial
      service (seven years of service for the Executive Officer), or upon reaching age
      74. The annuity is equal to the basic salary at retirement times the total years of
      judicial service divided by 30, plus 1.5% of basic salary times credited service up
      to five years, plus 1.75% of basic salary times credited service between five years


                                        54
and 10 years, plus 2% of basic salary times credited service over 10 years,
subject to a maximum benefit of 80% of final salary at retirement.
A judge electing to retire with at least 10 years of judicial service (at least seven
years if the Executive Officer) but fewer than 20 years of judicial service
between ages 55 and 60 shall receive an annuity based on the above formula,
reduced by 1/12% per month or fraction of a month (1% per year) for each year
the participant is under age 60 at retirement. Judges and the Executive Officer
are eligible for disability benefits after five years of total service if they have a
physical or mental disability that seriously interferes with the proper performance
of duties. The annuity to be received under a disability retirement will be a
normal benefit subject to a minimum benefit of 50% of salary.
All annuitants receive an annuity increase each January based on the annual
change in the Consumer Price Index for Urban Wage Earners and Clerical
Workers (all items – U.S. City Average) from September to September. This
cost of living increase is the same increase provided for annuitants in the Federal
Civil Service Retirement System (CSRS).
Participant Data
For the September 30, 2005, and 2004, actuarial valuations, the participants, as of
June 30, 2005 and 2004, eligible to receive a Federal benefit are as follows:

                                                       2005              2004
Active members                                              68                 69
Retirees and beneficiaries                                  75                 74
Vested terminated members                                    1                  1
             Total                                         144                144




                                   55
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidating Balance Sheets
As of September 30, 2005 and September 30, 2004
(in thousands)
                                                                               2005                                                                 2004
                                                           DC Judicial                                            DC Judicial
                                                           Retirement                           Consolidated      Retirement          Federal           DC Federal        Consolidated
                                                          and Survivors    DC Federal           DC Pension       and Survivors     Supplemental       Pension Liability   DC Pension
                                                          Annuity Fund    Pension Fund          Funds Total      Annuity Fund     DC Pension Fund       Trust Fund        Funds Total

Assets
     Entity Assets
          Intra-Governmental Assets
                Fund Balance with Treasury                $         25              226                   251    $         25                   -                 226                251
                Investments in GAS Securities, Net             107,362        3,762,529             3,869,891         101,949           2,087,848           1,717,714          3,907,511
                Interest Receivable from GAS Securities          1,358           44,292                45,650           1,323              23,819              26,801             51,943
                Advances to Others                                   2               17                    19               3                   -                  31                 34
          Software-In-Development                                    -                -                     -               -                   -                 891                891
          ADP Software, Net                                      1,110           16,569                17,679           1,553                   -              16,179             17,732
          Equipment, Net                                            23              205                   228              32                   -                 286                318
          Accounts Receivable                                       22           30,662                30,684              18                   -              16,005             16,023
Total Assets                                              $    109,902        3,854,500             3,964,402         104,903           2,111,667           1,778,133          3,994,703

Liabilities
     Liabilities Covered By Budgetary Resources
            Intra-Governmental
                  Accounts Payable                        $         30              270                   300    $          4                   -                  50                 54
                  Accrued Payroll & Benefits                         2               16                    18               1                   -                  13                 14
            Accounts Payable                                        58            4,000                 4,058              78                   -               4,731              4,809
            Accrued Pension Benefits Payable                       396           43,818                44,214             553                   -              41,956             42,509
            Actuarial Pension Liability                        101,069        3,558,460             3,659,529         104,237                   -           3,842,780          3,947,017
            Accrued Payroll & Benefits                              31              263                   294              30                   -                 270                300
     Total Liabilities Covered By Budgetary Resources          101,586        3,606,827             3,708,413         104,903                   -           3,889,800          3,994,703

     Liabilities Not Covered By Budgetary Resources
          Actuarial Pension Liability                           35,235        4,816,481             4,851,716          25,710                   -           4,394,564          4,420,274
Total Liabilities                                              136,821        8,423,308             8,560,129         130,613                   -           8,284,364          8,414,977

Net Position:
     Cumulative Results of Operations                          (26,919)      (4,568,808)           (4,595,727)         (25,710)         2,111,667          (6,506,231)        (4,420,274)
Total Net Position                                             (26,919)      (4,568,808)           (4,595,727)         (25,710)         2,111,667          (6,506,231)        (4,420,274)

Total Liabilities & Net Position                          $    109,902        3,854,500             3,964,402    $    104,903           2,111,667           1,778,133          3,994,703



See accompanying independent auditors' report.




                                                                                           56
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidating Statements of Net Cost
For the Years Ended September 30, 2005 and 2004
(in thousands)
                                                                     2005                                                     2004
                                                  DC Judicial                                    DC Judicial
                                                  Retirement                    Consolidated     Retirement      Federal     DC Federal        Consolidated
                                                 and Survivors    DC Federal    DC Pension      and Survivors Supplemental Pension Liability   DC Pension
                                                 Annuity Fund    Pension Fund   Funds Total     Annuity Fund DC Pension Fund Trust Fund        Funds Total
Program Costs
    Administrative Expenses                      $      1,484          18,041          19,525   $     1,694               -           18,673        20,367
    Pension Expense                                    12,892         597,132         610,024         8,312               -          514,180       522,492
Total Program Costs                                    14,376         615,173         629,549        10,006               -          532,853       542,859

Less: Earned Revenues
    Interest Earned from GAS Securities                 5,596         163,768         169,364         5,282          81,406           92,936       179,624
    Employee Contributions                                553               -             553           552               -                -           552
Net Cost of Operations                           $      8,227         451,405         459,632   $     4,172         (81,406)         439,917       362,683


See accompanying independent auditors' report.




                                                                                 57
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidating Statements of Changes in Net Position
For the Years Ended September 30, 2005 and 2004
(in thousands)
                                                                                              2005                                                                                      2004
                                                       DC Judicial                                                                                    DC Judicial
                                                       Retirement                             Federal         DC Federal        Consolidated          Retirement          Federal                DC Federal        Consolidated
                                                      and Survivors     DC Federal         Supplemental     Pension Liability   DC Pension           and Survivors     Supplemental            Pension Liability   DC Pension
                                                      Annuity Fund     Pension Fund       DC Pension Fund     Trust Fund        Funds Total          Annuity Fund     DC Pension Fund            Trust Fund        Funds Total

Net Position - Beginning of Year                  $         (25,710)                  -        2,111,667         (6,506,231)       (4,420,274)   $         (29,052)         1,760,261                (6,066,440)      (4,335,231)

Financing Sources (Other Than Exchange Revenue)
     Appropriations Used                                      7,000          277,000                   -                  -          284,000                 7,500           270,000                          -         277,500
     Transfers In/Out Without Reimburesment                       -       (4,394,564)         (2,111,667)         6,506,231                -                     -                 -                          -               -
     Imputed Financing Sources                                   18              161                   -                  -              179                    14                 -                        126             140
          Total Financing Sources                             7,018       (4,117,403)         (2,111,667)         6,506,231          284,179                 7,514           270,000                        126         277,640

Net Cost of Operations                                       (8,227)        (451,405)                  -                    -        (459,632)              (4,172)            81,406                  (439,917)        (362,683)

Net Position - End of Year                        $         (26,919)      (4,568,808)                  -                    -      (4,595,727)   $         (25,710)         2,111,667                (6,506,231)      (4,420,274)

See accompanying independent auditors' report.




                                                                                                            58
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Combining Statements of Budgetary Resources
For the Years Ended September 30, 2005 and 2004
(in thousands)
                                                                                   2005                                                                  2004
                                                  DC Judicial                                                                   DC Judicial
                                                  Retirement                      Federal     DC Federal       Combined         Retirement      Federal       DC Federal     Combined
                                                 and Survivors    DC Federal   Supplemental Pension Liability DC Pension       and Survivors Supplemental Pension Liability DC Pension
                                                 Annuity Fund    Pension Fund DC Pension Fund Trust Fund      Funds Total      Annuity Fund DC Pension Fund Trust Fund      Funds Total

Budgetary Resources
  Budget Authority                              $      19,992      (1,136,326)             -                 -   (1,116,334)   $  20,239          591,904         116,228       728,371
  Unobligated Balance - Beginning of Year              96,069       1,961,765     (1,961,765)        1,633,868    1,729,937       90,577                -       1,992,169     2,082,746
  Spending Authority from Offsetting Collection             -          21,130              -                 -       21,130            9                -          11,214        11,223
  Recoveries of Prior Year Obligations                    391           4,852              -                 -        5,243            -                -               -             -
  Temporarily Unavailable Pursuant to Public La             -               -      1,961,765                 -    1,961,765            -         (321,904)              -      (321,904)
  Total Budgetary Resources                     $     116,452         851,421              -         1,633,868    2,601,741    $ 110,825          270,000       2,119,611     2,500,436

Status of Budgetary Resources
   Obligations Incurred                          $     15,383        851,421               -         1,633,868   2,500,672     $  14,756          270,000         485,743       770,499
   Unobligated Balances Available                     101,069              -               -                 -     101,069        96,069                -       1,633,868     1,729,937
   Total Status of Budgetary Resources           $    116,452        851,421               -         1,633,868   2,601,741     $ 110,825          270,000       2,119,611     2,500,436

Relationship of Obligations to Outlays
  Obligated Balance, Net - Beginning of Year     $      1,359              -               -            53,848      55,207     $     1,241              -         66,937        68,178
  Obligations Incurred                                 15,383        851,421               -         1,633,868   2,500,672          14,756        270,000        485,743       770,499
  Recoveries of Prior Year Obligations                   (391)        (4,852)              -                 -      (5,243)              -              -              -             -
  Obligated Balance, Net - End of Year                 (1,653)       (58,312)              -                 -     (59,965)         (1,359)             -        (53,848)      (55,207)

  Outlays
   Disbursements                                       14,698        788,257               -         1,687,716   2,490,671          14,638        270,000        498,832       783,470
   Collections                                              -        (21,130)              -                 -     (21,130)             (9)             -        (11,214)      (11,223)
   Total Outlays                                       14,698        767,127               -         1,687,716   2,469,541          14,629        270,000        487,618       772,247
  Less: Offsetting Receipts                             5,992        180,419               -                 -     186,411           5,834         81,406         92,936       180,176
  Net Outlays                                    $      8,706        586,708               -         1,687,716   2,283,130     $     8,795        188,594        394,682       592,071


See accompanying independent auditors' report.




                                                                                                59
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidating Statements of Financing
For the Years Ended September 30, 2005 and 2004
(in thousands)
                                                                                                               2005                                                      2004
                                                                                  DC Judicial                                                   DC Judicial
                                                                                  Retirement                   DC Federal      Consolidated     Retirement      Federal     DC Federal      Consolidated
                                                                                 and Survivors    DC Federal Pension Liability DC Pension      and Survivors Supplemental Pension Liability DC Pension
                                                                                 Annuity Fund    Pension Fund  Trust Fund      Funds Total     Annuity Fund DC Pension Fund Trust Fund      Funds Total
Budgetary Resources Obligated
   Obligations Incurred                                                           $   15,383          851,421         1,633,868    2,500,672   $    14,756        270,000       485,743          770,499
   Less: Spending Authority from Offsetting Collections and Adjustments                  391           25,982                 -       26,373             9              -        11,214           11,223
   Obligations Net of Offsetting Collections and Recoveries                           14,992          825,439         1,633,868    2,474,299        14,747        270,000       474,529          759,276
   Less: Offsetting Receipts                                                           5,992          180,419                 -      186,411         5,834         81,406        92,936          180,176
   Net Obligations                                                                     9,000          645,020         1,633,868    2,287,888         8,913        188,594       381,593          579,100
   Transfers In/Out Without Reimbursement                                                  -       (8,193,947)        8,193,947            -             -              -             -                -
   Imputed Financing from Costs Absorbed by Others                                        18              161                 -          179            14              -           126              140
   Total Resources Used to Finance Activities                                          9,018       (7,548,766)        9,827,815    2,288,067         8,927        188,594       381,719          579,240
Resources Used to Finance Items Not Part of the Net Cost of Operations
   Change in Budgetary Resources Obligated for Goods, Services and
    Benefits Ordered but not yet Provided                                                443           9,930             (6,829)      3,544             71               -         (813)            (742)
   Resources That Fund Expenses Recognized in Prior Periods                                -          14,658                  -      14,658              -               -        7,504            7,504
   Resources that Finance the Acquisition of Assets or Liquidation of Liabilities          -           4,678                  -       4,678           (148)              -          290              142
   Other Resources or Adjustments to Net Obligated Resources that do not
    Affect Net Cost of Operations                                                      7,000       (7,869,928)        9,834,644    1,971,716         7,500        270,000             -          277,500
Total Resources used to Finance Items not part of the Net Cost of Operations           7,443       (7,840,662)        9,827,815    1,994,596         7,423        270,000         6,981          284,404
Total Resources Used to Finance Net Cost of Operations                                 1,575          291,896                 -      293,471         1,504        (81,406)      374,738          294,836
Components Requiring or Generating Resources in Future Periods
   Increase in Exchange Revenue Receivable from the Public                                (3)              -                  -          (3)             -               -            -                -
   Future Funded Expenses                                                              6,357         137,598                  -     143,955          2,232               -       60,558           62,790
Total Components of Net Cost of Operations that will Require or Generate
 Resources in Future Periods                                                           6,354         137,598                  -     143,952          2,232               -       60,558           62,790
Components not Requiring or Generating Resources
   Depreciation and Amortization                                                         560           4,709                  -       5,269            436               -        4,621            5,057
   Other                                                                                (262)         17,202                  -      16,940              -               -            -                -
Total Components of Net Cost Operations that will not Require or Generate
 Resources in Future Periods                                                             298          21,911                  -      22,209            436               -        4,621            5,057
Total Components of Net Cost Operations that will not Require or Generate
 Resources in Current Periods                                                          6,652         159,509                  -     166,161          2,668              -        65,179           67,847
Net Cost of Operations                                                            $    8,227         451,405                  -     459,632    $     4,172        (81,406)      439,917          362,683


See accompanying independent auditors' report.




                                                                                                        60
U.S. DEPARTMENT OF THE TREASURY
DEPARTMENTAL OFFICES
OFFICE OF D.C. PENSIONS
Supplemental Information Consolidating Intra-governmental Balances
As of and for the years ended September 30, 2005 and 2004
(in thousands)

                                                                                                         2005                                                         2004
                                                                                   D.C. Judicial                                       D.C. Judicial     Federal             D.C. Federal
                                                                                  Retirement        D.C. Federal    Consolidated        Retirement     Supplemental            Pension      Consolidated
                                                                                  and Survivors         Pension     D.C. Pension       and Survivors   D.C. Pension           Liability     D.C. Pension
Department                   Intra-governmental balance description               Annuity Fund           Fund       Funds Total        Annuity Fund       Fund               Trust Fund     Funds Total
                    Assets:
Treasury              Fund Balance with Treasury                              $             25                226           251    $             25              —                   226             251
Treasury              Interest receivable from GAS securities                            1,358             44,292        45,650               1,323          23,819               26,801          51,943
Treasury              Investments in GAS securities, net                               107,362          3,762,529     3,869,891             101,949       2,087,848            1,717,714       3,907,511
Treasury              Advances to Others                                                     2                 17            19                   3                                   31              34
                                       Total intra-governmental assets        $        108,747          3,807,064     3,915,811    $        103,300       2,111,667            1,744,772       3,959,739
                    Liabilities:
Treasury              Accounts Payable                                        $             28               253            281    $             2               —                    33              35
GSA                   Accounts Payable                                                       2                17             19                  2               —                    17              19
Gen Fund              Accrued Payroll & Benefits                                             1                 4              5                 —                —                     4               4
OPM                   Accrued Payroll & Benefits                                             1                12             13                  1               —                     9              10
                                       Total intra-governmental liabilities   $             32               286            318    $             5               —                    63              68
                    Revenues:
Treasury              Interest earned from GAS Securities                     $          5,596           163,768        169,364    $          5,282          81,406               92,936         179,624
OPM                   Imputed Financing Sources                                             18               161            179                  14              —                   126             140
                                       Total intra-governmental revenues      $          5,614           163,929        169,543    $          5,296          81,406               93,062         179,764
                    Expenses:
Treasury              Salaries and related benefits                           $              2                14             16    $              3              —                    13              16
OPM                   Salaries and related benefits                                         54               479            533                  39              —                   340             379
Gen Fund              Salaries and related benefits                                         14               124            138                  11              —                    95             106
Treasury              Contractual Services                                                 312             1,911          2,223                 344              —                 2,467           2,811
OPM                   Contractual Services                                                   2                23             25                  —               —                     1               1
GSA                   Contractual Services                                                  —                 —              —                    2              —                    17              19
GPO                   Contractual Services                                                  —                  1              1                  —               —                     6               6
USPS                  Contractual Services                                                  —                 —              —                    1              —                     7               8
Treasury              Rent                                                                  37               331            368                  64              —                   633             697
Treasury              Other                                                                  1                13             14                  —               —                     7               7
                                       Total intra-governmental expenses      $            422             2,896          3,318    $            464              —                 3,586           4,050

See accompanying independent auditors' report.




                                                                                                   61
U.S. DEPARTMENT OF THE TREASURY
DEPARTMENTAL OFFICES
OFFICE OF D.C. PENSIONS
Investments in GAS Securities - Net By Fund
As of September 30, 2005 and 2004
(in thousands)


                                                                                  2005                                                   2004
                                                                        Unamortized                                            Unamortized
                                                                         Premium     Investments   Market                       Premium     Investments   Market
                                                             Cost          Net           Net        Value           Cost          Net           Net        Value
D. C. Judicial Retirement and Survivors Annuity Fund:
Intragovernmental Securities
  Non-marketable Par Value                              $      4,405           -          4,405       4,405    $      5,056           -          5,056       5,056

  Non-marketable Market-based                                100,497         2,460      102,957     105,481          94,550         2,343       96,893     104,284

  Total                                                 $    104,902         2,460      107,362     109,886    $     99,606         2,343      101,949     109,340


Federal Supplemental D.C. Pension Fund:
Intragovernmental Securities

  Non-marketable Market-based                           $         -            -             -           -     $   1,970,746      117,102     2,087,848   2,166,140

  Total                                                 $         -            -             -           -     $   1,970,746      117,102     2,087,848   2,166,140


D.C. Federal Pension Liability Trust Fund:
Intragovernmental Securities

  Non-marketable Par Value                              $         -            -             -           -     $    188,619           -        188,619     188,619

  Non-marketable Market-based                                     -            -             -           -         1,502,565       26,530     1,529,095   1,572,025

  Total                                                 $         -            -             -           -     $   1,691,184       26,530     1,717,714   1,760,644


D.C. Federal Pension Fund:
Intragovernmental Securities

  Non-marketable Par Value                              $    177,979           -        177,979     177,979    $         -            -             -           -

  Non-marketable Market-based                               3,451,243      133,307     3,584,550   3,578,610             -            -             -           -

  Total                                                 $   3,629,222      133,307     3,762,529   3,756,589   $         -            -             -           -



See accompanying independent auditors' report.




                                                                                        62
U.S. DEPARTMENT OF THE TREASURY
DEPARTMENTAL OFFICES
OFFICE OF D.C. PENSIONS
Investments in Nonmarketable Market-Based GAS Securities - Net By Fund and Maturity
As of September 30, 2005 and 2004
(in thousands)

                                                                              2005                                                         2004
                                                           D.C. Judicial                                       D.C. Judicial     Federal          D.C. Federal
                                                            Retirement     D.C. Federal    Consolidated         Retirement     Supplemental         Pension      Consolidated
                                                           and Survivors     Pension       D.C. Pension        and Survivors   D.C. Pension         Liability    D.C. Pension
                                                           Annuity Fund       Fund         Funds Total         Annuity Fund       Fund            Trust Fund     Funds Total
Time of Maturity

Less than or equal to 1 year                           $            -          499,370          499,370    $            -              -              534,765        534,765

More than 1 year and less than or equal to 5 years               83,773      2,637,485         2,721,258             75,320      1,512,109            994,330      2,581,759

More than 5 years and less than or equal to 10 years             19,184        447,695          466,879              21,573        575,739                -          597,312

Total                                                  $        102,957      3,584,550         3,687,507   $         96,893      2,087,848          1,529,095      3,713,836


See accompanying independent auditors' report.




                                                                                          63
U.S. DEPARTMENT OF THE TREASURY
DEPARTMENTAL OFFICES
OFFICE OF D.C. PENSIONS
Administrative Expenses - By Fund
For the years ended September 30, 2005 and 2004
(in thousands)

                                                                        2005                                              2004
                                                     D.C. Judicial                                     D.C. Judicial   D.C. Federal
                                                      Retirement     D.C. Federal   Consolidated        Retirement       Pension      Consolidated
                                                     and Survivors     Pension      D.C. Pension       and Survivors     Liability    D.C. Pension
                                                     Annuity Fund       Fund        Funds Total        Annuity Fund    Trust Fund     Funds Total
Intragovernmental Expenses
   Salaries and Related Benefits                 $             70            617            687    $             53            448            501
   Contractual Services                                      314           1,935          2,249                347           2,498          2,845
   Rent                                                       37             331            368                  64            633            697
   Noncapitalized Equipment/Software                         -               -              -                  -               -              -
   Other                                                        1             13             14                -                 7              7
     Total intragovernmental expenses            $            422          2,896          3,318    $           464           3,586          4,050

Public Expenses
  Salaries and Related Benefits                  $           252           2,262          2,514    $           211           1,830          2,041
  Contractual Services                                       350           7,562          7,912                559           8,418          8,977
  Rent                                                       -                 3              3                -                 4              4
  Noncapitalized Equipment/Software                          457           5,295          5,752                458           4,825          5,283
  Other                                                        3              23             26                  2              10             12
     Total public expenses                       $          1,062         15,145         16,207    $          1,230         15,087         16,317


     Total administrative expenses               $          1,484         18,041         19,525    $          1,694         18,673         20,367


See accompanying independent auditors' report.




                                                                            64
U.S. DEPARTMENT OF THE TREASURY
DEPARTMENTAL OFFICES
OFFICE OF D.C. PENSIONS
Pension Expense - By Fund
For the years ended September 30, 2005 and 2004
(in thousands)

                                                                         2005                                              2004
                                                      D.C. Judicial                                     D.C. Judicial   D.C. Federal
                                                       Retirement     D.C. Federal   Consolidated        Retirement       Pension      Consolidated
                                                      and Survivors     Pension      D.C. Pension       and Survivors     Liability    D.C. Pension
                                                      Annuity Fund       Fund        Funds Total        Annuity Fund    Trust Fund     Funds Total

Normal Cost                                       $          4,100            -            4,100    $          4,100            -            4,100
Actuarial (Gains) Losses During the Period                   1,192        113,597        114,789              (3,288)        40,491         37,203
Interest on Pension Liability During the Period              7,600        483,000        490,600               7,500        479,100        486,600
Collective Bargaining Adjustment                               -              282            282                 -              -              -
Longevity Pension Pay Adjustment                               -              253            253                 -           (5,411)        (5,411)
Total Pension Expense                             $         12,892        597,132        610,024    $          8,312        514,180        522,492


See accompanying independent auditors' report.




                                                                          65
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




             Independent Auditors’ Report on Internal Control over Financial Reporting


The Inspector General, U.S. Department of the Treasury, and
Director, Office of D.C. Pensions:

We have audited the consolidated balance sheets of the U.S. Department of the Treasury’s Office of D.C.
Pensions (ODCP) as of September 30, 2005 and 2004, and the related consolidated statements of net cost,
changes in net position, and financing, and the combined statements of budgetary resources, for the years
then ended, and have issued our report thereon dated November 2, 2005. We conducted our audits in
accordance with auditing standards generally accepted in the United States of America; the standards
applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and Office of Management and Budget (OMB) Bulletin No. 01-02, Audit
Requirements for Federal Financial Statements.

In planning and performing our fiscal year 2005 audit, we considered ODCP’s internal control over
financial reporting by obtaining an understanding of ODCP’s internal control, determining whether internal
controls had been placed in operation, assessing control risk, and performing tests of controls in order to
determine our auditing procedures for the purpose of expressing our opinion on the financial statements.
We limited our internal control testing to those controls necessary to achieve the objectives described in
Government Auditing Standards and OMB Bulletin No. 01-02. We did not test all internal controls relevant
to operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The
objective of our audit was not to provide assurance on ODCP’s internal control over financial reporting.
Consequently, we do not provide an opinion thereon.

Our consideration of internal control over financial reporting would not necessarily disclose all matters in
the internal control over financial reporting that might be material weaknesses under standards issued by
the American Institute of Certified Public Accountants. Material weaknesses are conditions in which the
design or operation of one or more of the internal control components does not reduce to a relatively low
level the risk that misstatements, in amounts that would be material in relation to the financial statements
being audited, may occur and not be detected within a timely period by employees in the normal course of
performing their assigned functions. Because of inherent limitations in any internal control, misstatements
due to error or fraud may occur and not be detected. However, we noted no matters involving the internal
control and its operation that we considered to be material weaknesses as defined above.

As required by OMB Bulletin No. 01-02, in our fiscal year 2005 audit, with respect to internal control
related to performance measures determined by management to be key and reported in the Management
Discussion and Analysis, we obtained an understanding of the design of significant internal controls
relating to the existence and completeness assertions. Our procedures were not designed to provide
assurance on internal control over reported performance measures and, accordingly, we do not provide an
opinion thereon.


                                                               66
                                KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                a member of KPMG International, a Swiss association.
This report is intended solely for the information and use of ODCP’s management, the U.S. Department of
the Treasury’s Office of Inspector General, OMB, the Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




November 2, 2005




                                              67
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                  Independent Auditors’ Report on Compliance and Other Matters


The Inspector General, U.S. Department of the Treasury, and
Director, Office D.C. Pensions:

We have audited the consolidated balance sheets of the U.S. Department of the Treasury’s Office of D.C.
Pensions (ODCP) as of September 30, 2005 and 2004, and the related consolidated statements of net cost,
changes in net position, and financing, and the combined statements of budgetary resources, for the years
then ended, and have issued our report thereon dated November 2, 2005. We conducted our audits in
accordance with auditing standards generally accepted in the United States of America; the standards
applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and Office of Management and Budget (OMB) Bulletin No. 01-02, Audit
Requirements for Federal Financial Statements.

The management of ODCP is responsible for complying with laws, regulations and contracts, applicable to
ODCP. As part of obtaining reasonable assurance about whether ODCP’s fiscal year 2005 financial
statements are free of material misstatement, we performed tests of ODCP’s compliance with certain
provisions of laws, regulations and contracts, noncompliance with which could have a direct and material
effect on the determination of financial statement amounts, and certain provisions of other laws and
regulations specified in OMB Bulletin No. 01-02, including certain provisions referred to in the Federal
Financial Management Improvement Act of 1996 (FFMIA). We limited our tests of compliance to the
provisions described in the preceding sentence, and we did not test compliance with all laws, regulations
and contracts applicable to ODCP. However, providing an opinion on compliance with laws, regulations
and contracts was not an objective of our audit and, accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph, exclusive of those referred to
in FFMIA, disclosed no instances of noncompliance or other matters that are required to be reported under
Government Auditing Standards and OMB Bulletin No. 01-02.

Under OMB Bulletin No. 01-02 and FFMIA, we are required to report whether ODCP’s financial
management systems substantially comply with (1) Federal financial management systems requirements,
(2) applicable Federal accounting standards, and (3) the United States Government Standard General
Ledger at the transaction level. To meet this requirement, we performed tests of compliance with FFMIA
Section 803(a) requirements.

The results of our tests of FFMIA disclosed no instances in which ODCP’s financial management systems
did not substantially comply with the three requirements discussed in the preceding paragraph.




                                                                68
                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
This report is intended solely for the information and use of ODCP’s management, U.S. Department of the
Treasury’s Office of Inspector General, OMB, the Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




November 2, 2005




                                              69
